<html>
<title> - ESEA REAUTHORIZATION: STANDARDS AND ASSESSMENTS</title>
<body><pre>[Senate Hearing 111-1118]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 111-1118
 
                         ESEA REAUTHORIZATION: 
                       STANDARDS AND ASSESSMENTS 

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

        EXAMINING ELEMENTARY AND SECONDARY EDUCATION ACT (ESEA) 
         REAUTHORIZATION, FOCUSING ON STANDARDS AND ASSESSMENTS

                               __________

                             APRIL 28, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-288 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
































          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut           MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland              JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico                  LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington                   RICHARD BURR, North Carolina
JACK REED, Rhode Island                    JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont               JOHN McCAIN, Arizona
SHERROD BROWN, Ohio                        ORRIN G. HATCH, Utah
ROBERT P. CASEY, JR., Pennsylvania         LISA MURKOWSKI, Alaska
KAY R. HAGAN, North Carolina               TOM COBURN, M.D., Oklahoma
JEFF MERKLEY, Oregon                       PAT ROBERTS, Kansas
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
                                       
                                       

                      Daniel Smith, Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)

  























                            C O N T E N T S

                               __________

                               STATEMENTS

                       WEDNESDAY, APRIL 28, 2010

                                                                   Page
Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     2
Paine, Steven L., Ph.D., Superintendent of Schools, West Virginia 
  Department of Education, Charleston, WV........................     5
    Prepared statement...........................................     7
Schmeiser, Cynthia B., Ph.D., President, Education Division, Act 
  National Office, Iowa City, IA.................................    10
    Prepared statement...........................................    12
Phillips, Gary, Ph.D., Vice President, American Institutes for 
  Research, Washington, DC.......................................    17
    Prepared statement...........................................    19
Rivera, Charlene, Ed.D., Executive Director, George Washington 
  University Center for Equity and Excellence in Education, 
  Alexandria, VA.................................................    25
    Prepared statement...........................................    27
Thurlow, Martha, Ph.D., Director, National Center on Educational 
  Outcomes, Minneapolis, MN......................................    32
    Prepared statement...........................................    33
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    47
Alexander, Hon. Lamar, a U.S. Senator from the State of Tennessee    48
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    50
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    51
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    53
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................    56
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    58

                                 (iii)

  


                         ESEA REAUTHORIZATION: 
                       STANDARDS AND ASSESSMENTS

                       WEDNESDAY, APRIL 28, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:05 p.m. in Room 
SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Bingaman, Murray, Casey, Hagan, 
Merkley, Franken, Bennet, Enzi, Alexander, and Isakson.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    Today's hearing will focus on the important role that 
standards and assessments play in our education system.
    In our previous ESEA hearings, a variety of experts have 
impressed on us the importance of our country developing a 
world-class education system that prepares our students to be 
successful after high school graduation. In order to do this, 
it is vital that we have a clear understanding of what students 
need to learn and develop ways to accurately assess their 
progress to determine what they are learning and where they 
need additional help.
    Nearly 30 years ago, the landmark report, ``A Nation at 
Risk,'' highlighted the need for rigorous standards in our 
country's schools. About a decade later, the Nation's Governors 
heeded that call with the Charlottesville Summit, and the 
Federal Government supported States' efforts to develop 
standards by passing Goals 2000 and the Improving America's 
Schools Act, which was the 1994 version of ESEA.
    At the beginning of the last decade, we took the next steps 
by requiring that all students within a given State be held to 
the same high standards. These standards helped to end a two-
tiered system that meant lower expectations for disadvantaged 
students. However, the standards did not ensure that students 
were being prepared for success after high school graduation.
    In Iowa, for example, over 80 percent of high school 
graduates plan to pursue training or college after high school. 
Yet, too often, they are unprepared to meet the challenges of 
post-secondary education. Experts estimate that nearly 60 
percent of students entering post-secondary schools need to 
take remedial courses to catch up to college-level coursework.
    The Alliance for Excellent Education has estimated that 
this need for remediation costs our Nation at least $3.7 
billion every year. The problem is also evident in the 
workforce. A recent study estimated that over 50 percent of 
high school graduates do not have the skills to do their job, 
compared to less than 20 percent of college graduates.
    While the adoption of State standards was no small 
achievement in No Child Left Behind, it is clear that, as we 
reauthorize this bill, serious improvements are necessary. We 
must ensure that the standards that States set are not false 
benchmarks but translate into success, whether students chose 
to go to college or enter a career.
    I might also add that there are important civil rights and 
equity questions at play here also. Professor Goodwin Liu of 
Boalt Hall Law School at Berkeley published a paper showing 
that those States with the highest minority and low-income 
populations also tend to have the lowest standards.
    Finally, the obvious issues of teacher preparation and 
economies of scale are central to this conversation. How can 
schools of education properly prepare teachers to teach to 
standards if those standards may be significantly different in 
the State where the teacher ends up teaching after graduation?
    We do not have a mandate that says if a teacher goes to the 
University of Northern Iowa and takes a course in education to 
become a teacher that that person has to stay in Iowa all their 
life. They may go to Minnesota, and a lot of them do, quite 
frankly.
    I applaud the leadership of the chiefs and the Governors 
and their partners in developing this Common Core, and I look 
forward to hearing more about this. However, along with setting 
high achievement goals, we must also develop the ability to 
measure whether or not students are meeting those goals.
    Because of NCLB's testing requirements, we know more about 
which students are achieving and which need more assistance and 
support. Teachers need to know this, too. However, in many 
cases, that measurement is being done through low-quality tests 
that don't measure the range of skills and knowledge that we 
value.
    Technological advancements have made it possible to adapt 
questions during a test to better show the depth of a student's 
knowledge of the subject or to electronically score short-
answer or essay questions, not just multiple choice.
    In this reauthorization, it is critical that we redouble 
our commitment to ensuring that students will graduate ready to 
meet the challenges of college and the workplace. As we have 
heard time and time again, our economic success in the next 
century is directly tied to our ability to have a highly 
educated, highly skilled workforce.
    I look forward to hearing from our panelists today because 
adopting high-quality standards and assessments is an important 
step to that end. I thank all of them for being here. After 
Senator Enzi makes his opening statement, I will introduce the 
panel, and we can hear from the panel, and we will open it up 
for discussion.
    With that, I recognize Senator Enzi.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman.
    I just wanted to note that all of them don't go to 
Minnesota. Some of them come to Wyoming. That way, they don't 
have to learn a new accent.
    [Laughter.]
    I do want to thank you for continuing this series of 
hearings on the reauthorization of the Elementary and Secondary 
Education Act with the important issues of standards and 
assessments. The witnesses before us today have provided some 
excellent written testimony and will provide insight and 
information that will be very helpful in our work to 
reauthorize ESEA.
    I want to start by applauding the work of the National 
Governors Association and the Council of Chief State School 
Officers in the development of the Common Core standards. This 
effort was appropriately led, developed, and should be 
continued by the States.
    I have said for many years that students need to be 
provided with knowledge and skills they need to be successful 
in college and the workforce. The Common Core standards, 
developed by the States, if implemented and adopted properly, 
could finally move our country in that direction.
    However, the Federal Government should stay out of the way 
of these efforts. As we work on the reauthorization of ESEA, we 
should find ways to assist States, not require or coerce them 
with this difficult, but important, work. The development and 
adoption of these standards by the States are just the first 
steps in a very long process.
    Once adopted, States are going to have to implement new 
assessments and curriculum aligned to these standards. This 
process will take time, which may be longer for some States 
than others, but it has the potential to save money in the cost 
of test validation. Part of the process is making sure that the 
impact on teachers in the classroom is positive and that they 
are given the training and support they need to teach students.
    I am pleased that many of you will also discuss 
assessments. While considering the changes to ESEA, we need to 
maintain the high standard of including all students in single 
State-wide accountability systems. The growth of individual 
students and collectively among a group of students in reducing 
the achievement gaps between higher-achieving and lower-
achieving students has been well-documented. We cannot stop 
moving in this direction now as we continue to prepare our 
students, rich or poor, with or without disabilities, or 
English language learners for post-secondary education or 
employment in the global economy.
    However, when assessing these students, we need to be sure 
they are taking the assessment that best measures their 
ability. Therefore, students need access to the necessary and 
proper accommodations and other supports they need to 
accurately reflect their true ability and capability.
    The work being done by States on standards has spearheaded 
significant discussion among the next generation of State 
systems of assessment. In my travels across Wyoming, I hear 
over and over that the static model used by many States under 
No Child Left Behind needs to be changed to allow for growth 
models in all the States.
    I am particularly pleased that these new assessments will 
be better aligned to allow for better measurements of student 
growth from year to year. It is important to maintain regular 
assessments that summarize the development of students so that 
we know how a student has done over the course of each year.
    It is also important to support State systems of assessment 
that would include various assessment models, many of which 
could be used by teachers to better inform the work they do in 
the classroom. I also believe that these new assessments can do 
a better job of measuring higher-order thinking skills and the 
21st century skills that business leaders need in their 
workforce.
    All of these changes will also have a huge impact on the 
data that we report, collect, and use. As we work through these 
changes, we must remember that it is important to measure what 
we value instead of valuing what we measure. States and school 
districts have developed data systems, but it is still unclear 
how much of that data is accessible by teachers to really have 
an impact on their work in the classroom.
    Elementary and secondary education in this country is 
undergoing some new and exciting changes. Our work on the 
reauthorization of ESEA must be done carefully and deliberately 
to foster and support the changes. NCLB is often criticized for 
its unintended consequences. If we are not thoughtful and 
instead work quickly because we are trying to meet artificial 
deadlines, we could wind up being criticized even more than we 
are now.
    I want to welcome all the witnesses and thank them for 
being with us today to share their knowledge and expertise. I 
know that we won't have a chance to ask you all the questions 
that we need to, based on the testimony that I have already 
read. I hope that you realized you have volunteered to answer 
written questions that we might have afterwards.
    I look forward to learning more from each of you in the 
efforts you have undertaken in the areas of standards and 
assessments.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Enzi.
    I just want to reassure you and also my friend from 
Minnesota, Senator Franken, that because so many Minnesotans 
come south to Iowa for the winter----
    [Laughter.]
    We like to be welcoming, we make sure that all of our kids 
in Iowa are taught to say, ``Ya, you betcha.''
    [Laughter.]
    That is Minnesotan. Just want to reassure you that we do 
know how to speak that language.
    Senator Franken. Oh, thanks a lot.
    [Laughter.]
    The Chairman. Ya, you betcha.
    [Laughter.]
    Now I will thank our panel for being here. I will introduce 
you all. Then we will just go in order.
    First, we have Dr. Steven Paine, West Virginia's 25th State 
superintendent of schools. Under the leadership of Dr. Paine, 
West Virginia has been internationally and nationally 
recognized for its 21st century learning program, its pre-K 
programs, school leadership development programs, reading 
initiatives, and teacher quality efforts. Dr. Paine was 
recently elected president of the board of the Council of Chief 
State School Officers.
    Next, from my home State of Iowa, someone who did not go to 
Minnesota, Dr. Cindy Schmeiser. As the Education Division 
president at ACT, Dr. Schmeiser is responsible for leading and 
coordinating the research, development, and client support of 
all assessment instruments associated with ACT's educational 
programs. She obtained her Master's and Doctorate degrees in 
educational measurement and statistics from the University of 
Iowa.
    Next, we are joined by Dr. Gary Phillips. Dr. Phillips is a 
vice president at American Institutes for Research. He has 
served as the commissioner of the National Center for Education 
Statistics from 1999 until 2002. He is internationally known 
for his expertise in large-scale assessments and complex 
surveys.
    Next, we welcome Dr. Charlene Rivera, who directs the 
George Washington University Center for Equity and Excellence 
in Education. As a nationally recognized education researcher, 
Dr. Rivera is known for work that addresses English language 
learners. Her research focuses on State assessment policies and 
practices, accommodations, accountability, national standards, 
program evaluation and reporting, and leadership development.
    Finally, we are grateful to have Dr. Martha Thurlow, who is 
the director of the National Center on Educational Outcomes. In 
this position, she addresses the implications of contemporary 
policy and practice for students with disabilities, including 
national and State-wide assessment policies and practices, 
standard-setting efforts, and graduation requirements.
    Dr. Thurlow has conducted research for the past 35 years in 
a variety of areas, including assessment and decisionmaking, 
learning disabilities, early childhood education, dropout 
prevention, effective classroom instruction, and integration of 
students with disabilities in general education settings.
    We have a very distinguished panel to talk to us about 
standards and assessments. We welcome you here. All your 
statements will be made a part of the record in their entirety.
    I would appreciate it if you could take 5 minutes or 
thereabouts to just give us a summary of it, and then we can 
engage you in conversation.
    Dr. Paine, welcome, and please proceed.

STATEMENT OF STEVEN L. PAINE, Ph.D., SUPERINTENDENT OF SCHOOLS, 
     WEST VIRGINIA DEPARTMENT OF EDUCATION, CHARLESTON, WV

    Mr. Paine. Thank you, Mr. Chairman.
    Chairman Harkin, Ranking Member Enzi, members of the 
committee, thank you for inviting me to speak today on behalf 
of the Council of Chief State School Officers and the National 
Governors Association regarding Common Core standards and that 
initiative and the State cooperation to develop high-quality 
assessments that is related to that project.
    My name is Steve Paine. I am the State superintendent of 
schools in West Virginia and the current president of CCSSO.
    And I just might add, Senator Harkin, Senator Enzi, in your 
opening remarks, you are spot on to the issues that exist 
around the Common Core standards and the assessments that are 
related. I am so appreciative that you understand the issues so 
clearly. Thank you.
    As the committee continues to examine the Elementary and 
Secondary Education Act, I appreciate this opportunity to talk 
about the States' extraordinary leadership in a voluntary 
effort to ensure that all students are held to college- and 
career-ready standards. The State-led Common Core development 
effort will conclude next month with the release of the final 
grade-by-grade standards in English language arts and 
mathematics.
    This work is representative of States' commitment to 
leading the way on education reform. Given this bold State 
action, we hope the Federal Government will respond in kind by 
ensuring that the updated ESEA supports a new State-Federal 
partnership, a partnership that provides States with greater 
authority to innovate and appropriate incentives and supports 
to help them not only implement college- and career-ready 
standards, but also improve teacher and leader effectiveness, 
strengthen longitudinal and instructional data systems, and 
turn around low-performing schools.
    CCSSO and NGA launched the voluntary State-led Common Core 
standards initiative to provide a coherent foundation for 
ensuring that all students leave high school ready for college 
and career. The 48 States, including West Virginia--and I might 
add that we are one of those States that is a high-minority 
State.
    We are very proud of the fact that we have taken this work 
of Common Core standards seriously, and our own new standards 
now receive top billing in most recent quality counts report in 
Education Week for being rigorous and having a very rigorous 
standards assessment accountability system. So it can be done, 
and we have rolled up our sleeves to say that we are going to 
accept that challenge.
    As we move forward, there were five core principles that 
permeated the development of the Common Core standards. It was 
determined that the common standards must be, No. 1, fewer, 
clearer, and higher. A mantra that we learned from some of 
those higher performing nations out there, such as Singapore 
and Taiwan and others.
    Second, that they needed to be, in fact, internationally 
benchmarked to the curricula of those highest-performing 
nations.
    Third, that they include rigorous content knowledge, along 
with those skills that you have identified in your introduction 
that are so critical to business and into the private sector 
today in our global world.
    Fourth, they must be evidence and research-based. And 
finally, that they prepare students for college and career. 
That is an absolute must.
    As the development phase concludes, State adoption and 
implementation of the Common Core will help to ensure that all 
students are called upon to satisfy college- and career-ready 
standards and will enable fair and accurate performance 
comparisons--which is a key point of this, State 
comparability--between States, while catalyzing and enabling 
unprecedented State collaboration to address the Nation's most 
pressing educational challenges.
    Several States are in the process of adopting the Common 
Core. Kentucky led the way, and they were the first State. I am 
proud to say our State will adopt the Common Core next month, 
and I am sure other States will follow suit as the deadline for 
adoption approaches us.
    Participating States developed the Common Core standards in 
two phases with the support of leading standards experts who 
collaborated with a range of interested stakeholders from 
across the country. The very transparent development process 
included numerous opportunities for public comment and 
benefited from constructive feedback provided by individual 
schoolteachers--very importantly schoolteachers--and leaders, 
national education organizations, higher education 
representatives, civil rights groups, and other interested 
parties and individuals.
    The initiative's phase one work concluded in the fall of 
2009 when CCSSO and NGA published Common Core and career-
readiness standards, illustrating what students should know at 
the end of high school. Since that time, the initiative's 
second phase of work has focused on back-mapping the college- 
and career-ready standards on a grade-by-grade basis for 
kindergarten through Grade 12.
    Let me just say in conclusion, if I might, that we 
certainly are excited about the opportunities that have been 
availed with the advent of $350 million in Race to the Top for 
innovative assessments to assess this Common Core, the full 
scope and--the full scope and range of the Common Core 
standards.
    I also deeply appreciated in your opening remarks your 
acknowledgment that that certainly includes a summative 
standardized test, but must include other measures of progress, 
particularly those that are employed by teachers in classrooms 
as we look at multiple measures of how we assess progress.
    I certainly appreciate the time that you have provided to 
me today to offer testimony and look forward to any questions 
that you might have for me after the testimonials from our 
other experts.
    Thank you, sir.
    [The prepared statement of Mr. Paine follows:]
              Prepared Statement of Steven L. Paine, Ph.D.
    Chairman Harkin, Ranking Member Enzi, members of the committee, 
thank you for inviting me to speak today about the Council of Chief 
State School Officers (CCSSO) and National Governors Association (NGA) 
common core standards initiative and State cooperation to develop 
related high quality assessments. My name is Steve Paine, I am the 
State Superintendent of Schools in West Virginia and the current 
President of CCSSO.
    As the committee continues to examine the Elementary and Secondary 
Education Act, I appreciate this opportunity to talk about the States' 
extraordinary leadership in a voluntary effort to ensure that all 
students are held to college and career-ready standards. The State-led 
common core development effort will conclude next month with the 
release of the final grade-by-grade standards in English Language Arts 
and Mathematics. This work is representative of States' commitment to 
leading the way on education reform. Given this bold State action, we 
hope the Federal Government will respond in kind by ensuring that the 
updated ESEA supports a new State-Federal partnership. A partnership 
that provides States with greater authority to innovate and appropriate 
incentives and supports to help them not only implement college and 
career-ready standards, but also improve teacher and leader 
effectiveness, strengthen longitudinal and instructional data systems 
and turnaround low-performing schools.
                                summary
    CCSSO and the NGA launched the voluntary State-led common core 
standards initiative to provide a coherent foundation for ensuring that 
all students leave high school ready for college and career. The 48 
States, including West Virginia, two territories and the District of 
Columbia who worked collectively to develop the common core standards 
in English language arts and mathematics were guided by several core 
principles. The common standards must be: (1) higher, clearer and 
fewer, (2) internationally benchmarked, (3) include content knowledge 
and skills; (4) evidence and research-based; and (5) prepare students 
for college and career. As the development phase concludes, State 
adoption and implementation of the common core will help to ensure that 
all students are called upon to satisfy college and career-ready 
standards and will enable fair and accurate performance comparisons 
between States, while catalyzing and enabling unprecedented State 
collaboration to address the Nation's most pressing educational 
challenges.
    Participating States developed the common core standards in two 
phases with the support of leading, standards experts, who collaborated 
with a range of interested stakeholders from across the country. The 
transparent development process, included numerous opportunities for 
public comment and benefited from constructive feedback provided by 
individual school teachers and leaders, national education 
organizations, higher education representatives, civil rights groups, 
and other interested parties and individuals. The initiative's phase 
one work concluded in the fall of 2009 when CCSSO and NGA published 
common college and career readiness standards, illustrating what 
students should know at the end of high school. Since that time, the 
initiative's second phase of work has focused on back-mapping the 
college and career-ready standards on a grade-by-grade basis for 
Kindergarten through Grade 12.
    As the standards development work draws to a close and 
participating States begin the voluntary adoption process, several 
exciting common State assessment collaboratives are beginning to take 
shape, including a group co-led by West Virginia. State cooperation to 
develop common, high quality assessments is possible because of the 
common core standards initiative and will be furthered by the $350 
million Race to the Top Assessment competition. These advanced 
assessment systems will measure student knowledge and skills against 
the full range of college and career-ready standards and will represent 
the next generation of summative, formative and interim assessments, 
which will significantly improve teaching and learning in the classroom 
by providing unprecedented insights into student's status and growth.
    Even as this important State-led standards and assessment work 
continues, we are pleased to have this opportunity to make 
recommendations to Congress about how the Elementary and Secondary 
Education Act might be updated to support State-led education reform. 
The Nation's chief State school officers believe the new ESEA should 
continue and expand the Federal Government's strong commitment to 
supporting State assessment development, support movement toward 
voluntary State college and work-ready standards, and fund the creation 
of aligned, and enhanced assessments systems. New instrumentation 
should be fully representative of the richness of standards and allow 
for students who learn at different rates.
     common core standards development principles and transparency
    As mentioned earlier, even before State development of the common 
standards started in early 2009, the initiative was driven by four 
fundamental principles designed to ensure the integrity and quality of 
the standards.
    First, the common standards are higher, clearer and fewer. Each 
design element was crucial to the development process. Higher standards 
raise the bar to prepare students for international competitiveness. 
Being committed to higher standards ensures that no State would lower 
its standards by adopting the common core. Clearer standards allow 
parents, students, and teachers to understand exactly what is expected 
of students as they advance through the system. Fewer standards allow 
teachers to more deeply focus on topics. One challenge that State 
leaders consistently hear from educators is that current standards are 
too numerous to cover in the school year. To overcome this challenge, 
we raised the bar and focused the standards to maximize student 
learning.
    Second, the common standards are internationally benchmarked. 
American students are entering a global economy that requires 
competition with students from around the world. Through States' 
development of the common standards, we evaluated other high achieving 
countries' standards to ensure that the common core represented world 
class standards. As a result, the new standards will prepare American 
students to be internationally competitive when they leave the Nation's 
public schools.
    Third, the common standards development process was informed by 
evidence and cutting edge research. Historically, standards were often 
based largely on personal judgment. By allowing personal judgment to 
determine what concepts are in or out of standards, the process often 
became a negotiation, rather than a reflection on what evidence and 
research tells us about the connection between K-12 experiences and 
success in higher education and promising careers.
    Lastly, the common standards are aligned with college and work 
expectations. By preparing all students to be both college and career-
ready, all students are able to compete in their post-secondary 
education and/or career choice. Preparing all students to be college- 
and career-ready is absolutely critical to the long-term success of the 
country. By providing a set of expectations that are clear to students, 
parents and educators about what it takes to be college and career-
ready, the States have taken a major step forward in producing students 
who are ready for later success.
               common core standards development process
    CCSSO and NGA committed to participating States, territories and 
the District of Columbia that the standards development process would 
be open and transparent. In April 2009, over 40 States met to discuss 
the possibility of creating common core standards in English language 
arts and mathematics. Following this meeting, 48 States formally agreed 
to join the common core standards development effort and begin a two-
phase process. Phase one: develop college and career readiness 
standards. Phase two: create college and career standards through K-12, 
grade-by-grade by Spring 2010. Using experts and practitioners from 
across the Nation and throughout the world, the States completed the 
college and career readiness standards in September 2009. The standards 
were reviewed by States, the public, and a range of national 
organizations and outside experts. Based upon the college and career-
readiness standards completed late last year, participating States and 
the expert development team immediately began development of the grade-
by-grade K-12 standards, successfully releasing the standards for 
public comment in March 2010. Public comments were due on April 2 and 
the final K-12 expectations will be released next month, allowing 
States to begin the adoption and implementation process.
    States are responsible for demonstrating that within 3 years they 
have fully implemented the standards by developing instructional 
supports and aligning assessments. Kentucky has already formally 
adopted the common core and we expect a significant number of States to 
follow Kentucky's lead later this year.
     benefits of common standards: students, parents, and teachers
    Common standards are a positive development for all students. The 
standards will help equip students with the knowledge and skills needed 
to succeed in college and careers. The new standards will also set high 
expectations for learning across the Nation, ensuring that all students 
must meet a high bar regardless of where they live. The standards will 
allow students to more easily transition from one State to another 
without losing valuable learning time adjusting to different standards. 
Given the mobility of the student population in the United States, 
common standards are essential. Also, higher, clearer, and fewer 
standards makes the student's responsibilities clear, so that they can 
take charge of their own learning.
    For parents and other caregivers, common standards will delineate 
exactly what their student needs to know and be able to do at each 
educational stage. With clearer and fewer standards, parents will be 
better positioned to facilitate conversations with their child's 
teachers about what they should be learning and how they can reach 
their goals creating even more accountability in system.
    Finally, common standards will make student expectations clear for 
teachers from year to year. The new standards will also enable more 
focused educator training and professional development. Effective, 
targeted teacher training is paramount, and common standards allow for 
teacher preparation programs and ongoing professional development to be 
focused on key objectives.
                     common assessments development
    Fewer, clearer, higher common core standards are only the first 
step in a longer reform process. The new standards lay the groundwork 
for States to collaborate on other key education reforms, including the 
development of next generation assessments. As States begin the 
standards adoption and implementation process, they are also beginning 
the process of developing voluntary shared assessments, which will 
increase assessment quality, while also providing tremendous cost 
savings and other benefits. Aligned standards and assessments will 
allow States aligned teacher preparation and other supports designed to 
improve overall student achievement and close achievement gaps. 
Teachers from participating States will benefit from high quality 
instructional supports and materials that are aligned to the core 
standards.
    CCSSO and NGA are providing support to two independent State 
assessment collaboratives and are working with several organizations to 
make sure that materials related to the common standards will be 
produced in an effective and open way to allow access to all teachers 
and schools. With common core standards and assessments, participating 
States can, as appropriate, continue collective reform efforts in 
nearly all facets of the education system.
                            the federal role
    To preserve the project's integrity, it is imperative that the 
common standards initiative remains a State-led process. There are 
appropriate steps, however, the Federal Government can take to support 
State and local leadership. The revised Elementary and Secondary 
Education Act should reward State leadership and innovation, not just 
with funding for assessments, professional development, and other 
inputs, but also by codifying a new State-Federal partnership that 
promotes innovation and values State judgment on accountability. The 
current accountability system established under the No Child Left 
Behind Act will undercut movement toward high standards and must be 
updated to reflect the evolution of standards-based reform since the 
law was signed in 2002. By adopting the college and career-ready common 
core standards, States are voluntarily raising the bar for all students 
and the Federal Government should acknowledge their leadership by 
providing greater flexibility to help States ensure that all students 
meet these new higher expectations particularly as they transition 
their State accountability systems to the common core.
    Thank you again for the opportunity to testify before the 
committee. I look forward to responding to any comments or questions 
you may have about this historic State-led effort.

    The Chairman. Dr. Paine, thank you very much.
    Now, Dr. Schmeiser, welcome. Please proceed.

STATEMENT OF CYNTHIA B. SCHMEISER, Ph.D., PRESIDENT, EDUCATION 
          DIVISION, ACT NATIONAL OFFICE, IOWA CITY, IA

    Ms. Schmeiser. Good afternoon, Chairman Harkin, Ranking 
Member Enzi, and members of the committee.
    Thank you for inviting me today to share some information 
about ACT's definition of college and career readiness, our 
role in the Common Core State Standards Initiative, and our 
approach to developing new generation assessments.
    ACT, headquartered in your home State of Iowa, Chairman 
Harkin, is an independent, not-for-profit organization perhaps 
best known for the ACT, which is a widely used college 
admissions and placement assessment, but our scope and our 
mission has reached far beyond that to all levels of education 
and to workforce development, both nationally and 
internationally.
    ACT's empirical research has defined college readiness as 
the acquisition of the knowledge and skills a student needs to 
enroll in and succeed in credit-bearing first-year courses at a 
post-secondary institution, such as a 2-year, a 4-year, or a 
trade school or technical school. Simply stated, readiness for 
college means not having to take remedial courses in college.
    ACT research also shows that career readiness requires the 
same level of knowledge and skills in mathematics and in 
reading that college readiness does. Matter of fact, the 
majority of jobs that require at least a high school diploma, 
provide a living wage for a family of four, are, in fact, 
projected to increase in number in the 21st century, and offer 
opportunities for career advancement require comparable levels 
of knowledge and skill for students entering workforce training 
programs as they do for the entering college student.
    Compared to high school graduates who are not college 
ready, those who are ready to enter credit-bearing college 
courses are more likely to enroll in college, stay in college, 
earn higher grades, and graduate from college. Unfortunately, 
last year, of the 1.5 million students who graduated in 2009 
and took the ACT, only 23 percent of those students were 
adequately prepared for post-secondary education in all four 
subject areas of English, math, reading, and science.
    Because of our rich research base and our experience in 
college and career readiness, ACT was very pleased to play a 
major development role in the State-led common State standards 
initiative. The definition of college and career readiness 
within the Common Core State Standards Initiative is modeled on 
the approach pioneered by ACT.
    And one of the most important distinguishing 
characteristics, I think, of this initiative is the fact that 
the standards were based on longitudinal research, research and 
evidence-based. It is an important distinction between the 
Common Core standards being research and evidence-based and 
what we have seen in State standards in this country. In 
addition to ACT's longitudinal research, the evidence was used 
from the work of high-performing countries, from high-
performing States, as well as academic research.
    Implementation of these standards provides a wonderful 
opportunity to better align and improve the educational and 
essential foundations of our system in this country around the 
goals of college and career readiness and represents a 
monumental step toward meeting our national goal of assuring 
education equity and excellence for all students. Along with 
the implementation, however, comes an important obligation to 
validate and to strengthen these standards periodically in an 
ongoing validation process.
    Moving immediately from standards implementation to 
development assessment, I think, ignores some important steps, 
such as interpreting these standards into language that 
teachers can use and understand in the classroom and providing 
educators professional development in how to effectively teach 
these standards. Only then can these assessments, as part of an 
aligned, linked, and longitudinal system, be effective tools 
for students, teachers, administrators, and parents in 
monitoring student progress.
    It is clear from ACT research that college and career 
readiness is a process. It is not a point in time. As such, no 
single assessment can effectively meet the needs of all. 
Therefore, ACT envisions States moving toward more coherent 
systems of assessment, comprised of multiple assessment 
measures and types.
    Within such a system, each assessment would work with 
others to reveal a rich picture of student achievement and 
student growth. This will enable us to identify students who 
are on target, almost on target, and off target every grade, 
every year, allowing educators to tailor instruction to the 
needs of each student.
    While the next generation assessments represent our highest 
expectations, we need to also remain sensitive to the pragmatic 
challenges faced by States, districts, and schools. It is 
important to strike an important balance between innovation and 
sustainability.
    Therefore, based on our research, we would offer the 
following four recommendations. First, promote college and 
career readiness as a fundamental national goal and priority 
for all students.
    Second, incentivize the implementation of college and 
career readiness standards by working with States to develop an 
accountability system that will meet their evolving needs.
    Third, increase the capability of States, districts, and 
schools to use more effectively assessment data to monitor 
student progress, to intervene when students are falling 
behind, and differentiate instruction to advance college and 
career readiness for all students.
    And finally, authorize additional resources for States 
implementing college and career readiness to develop coherent 
systems for assessment that include innovative measures, such 
as end-of-course, project-based learning and formative 
assessments.
    We now have the opportunity to fill the promises that we 
have been making to our children for decades that when they 
graduate high school, they will be ready for college and work. 
ACT research has identified strategies that can help our Nation 
meet this goal, and we look forward to helping make college and 
career readiness a reality for each and every student through a 
reauthorized ESEA.
    Thank you very much for this opportunity, and I look 
forward to answering any questions you might have.
    [The prepared statement of Ms. Schmeiser follows:]
           Prepared Statement of Cynthia B. Schmeiser, Ph.D.
                           executive summary
    ACT's empirical research defines college readiness as acquisition 
of the knowledge and skills a student needs to enroll and succeed in 
credit-bearing, first-year courses at a post-secondary institution, 
such as a 2- or 4-year college, trade school, or technical school. 
Simply stated, readiness for college means not needing to take remedial 
courses in college. ACT research also shows that career readiness 
requires the same level of knowledge and skills in mathematics and 
reading that college readiness does: the majority of the jobs that 
require at least a high school diploma, pay a living wage for a family 
of four, are projected to increase in number in the 21st century, and 
provide opportunities for career advancement require a level of 
knowledge and skills comparable to those expected of the first-year 
college student.
    Because of our rich research base and expertise on college and 
career readiness, ACT was pleased to play a major development role in 
the State-led Common Core State Standards Initiative. The definition of 
college and career readiness within the Common Core State Standards 
Initiative is modeled on the approach pioneered by ACT. Implementation 
of those standards provides a remarkable opportunity to better align 
and improve the essential foundations of our Nation's education system 
around the goal of college and career readiness, and represents a 
monumental step toward meeting our National goal of ensuring 
educational equity and excellence for all students. Along with 
implementation comes the important obligation to validate and 
strengthen those standards periodically in an ongoing process. ACT will 
be working with States to help establish such a validation process.
    The convergent timing of the development of the Common Core 
standards and the reauthorization of ESEA has spurred a productive 
national dialogue on how we can improve the purposes, design, and use 
of assessments in K-12 education. Moving immediately from standards 
implementation to the development of assessments ignores some important 
steps, such as interpreting those standards into language that teachers 
and leaders can understand and providing educators professional 
development on how to effectively teach the standards. Only then can 
assessments--as part of an aligned, linked, and longitudinal system--be 
effective tools for students, teachers, administrators, and parents in 
monitoring student progress.
    No single assessment will effectively meet the needs of all. ACT 
envisions States moving toward more cohesive systems, comprised of 
multiple assessment measures and types. Within such a system, each 
assessment would work with the others to reveal a rich picture of 
student achievement and growth. This will enable us to identify 
students who are on target, nearly on target, or off target for college 
and career readiness in every grade, allowing educators to intervene 
with students who are falling behind.
    Our Nation's efforts to strengthen standards and assessments will 
set high expectations for learning and provide educators with tools to 
monitor and accelerate student progress towards those expectations. 
This is a watershed moment in the history of education in our country. 
We at ACT look forward to helping make college and career readiness a 
reality for each and every student.
                                 ______
                                 
                               about act
    Good afternoon, Chairman Harkin, Ranking Member Enzi, and members 
of the committee. Thank you for the opportunity to speak today about 
ACT's research on college and career readiness and its importance to 
the future of our Nation's students.
    ACT, Inc. is an independent, not-for-profit organization that 
provides assessment, research, information, and program management 
services in education and workforce development. We are perhaps best 
known for the ACT test, the widely used college admission examination, 
but our scope and range go far beyond that one exam. Each year, we 
serve millions of individuals in middle schools, high schools, 
colleges, professional associations, businesses, and government 
agencies both nationally and internationally. Although designed to meet 
a wide array of needs, all ACT programs and services have one guiding 
purpose: helping people achieve education and workplace success.
    For more than 50 years, ACT has collected and reported data on 
students' academic readiness for college by following millions of 
students into all types of post-secondary education to evaluate their 
success through college completion. ACT is the only organization with 
decades of data showing exactly what happens to high school graduates 
once they get to college or workforce training, based on how well they 
were prepared in middle school and high school.
    While the attention paid to common college and career readiness 
standards and assessments is relatively recent, ACT has been 
implementing common standards and common assessments for well over 20 
years. We have developed research-based standards that are linked to 
actual student success at the post-secondary level. As a result, the 
standards we have developed are generally fewer in number and more 
rigorous than what is typically found in many States' standards. In 
this model, our assessment data are comparable and transportable across 
State lines and have strong links to the post-secondary sector. As of 
the 2009-2010 school year, our College and Career Readiness System of 
vertically aligned assessments for 8th, 10th, and 11th or 12th grade 
students has been adopted statewide in 15 States and used at the 
district and school levels in all 50 States.
    In this regard, our philosophy and approach are unique. Our 
assessments are grounded in research that tells us what knowledge and 
skills are essential in order for students to be ready for college and 
career. In my testimony I will share what we have learned and offer 
suggestions for reauthorization of the Elementary and Secondary 
Education Act (ESEA).
                 defining college and career readiness
    We are deeply encouraged by the national momentum to elevate the 
importance of college and career readiness within the policies and 
programs authorized under ESEA. While recognizing that the role of the 
Federal Government in education is limited, we do believe that ESEA can 
promote equity and excellence in communities nationwide through a 
unified goal of ensuring that every student leaves high school ready 
for college and career.
    A first step toward realizing this goal is to come to agreement on 
what constitutes ``college and career readiness.'' While there are many 
definitions of college and career readiness, the approach established 
through ACT research comes from empirical data.
    ACT defines college readiness as acquisition of the knowledge and 
skills a student needs to enroll and succeed in credit-bearing, first-
year courses at a post-secondary institution, such as a 2- or 4-year 
college, trade school, or technical school. Simply stated, readiness 
for college means not needing to take remedial courses in post-
secondary education or training programs.
    Unfortunately, there are far too many in this country who believe 
that the level of achievement needed for high school graduates who want 
to enter workforce training programs is far less than that needed for 
those students who plan to enter some form of post-secondary education. 
ACT research shows that career readiness requires the same level of 
foundational knowledge and skills in mathematics and reading that 
college readiness does. According to our research, the majority of the 
jobs that require at least a high school diploma, pay a living wage for 
a family of four, are projected to increase in number in the 21st 
century, and provide opportunities for career advancement require a 
level of knowledge and skills comparable to those expected of the 
first-year college student. The level of knowledge and skills students 
need when they graduate from high school is the same whether they plan 
to enter post-secondary education or a workforce training program for 
jobs that offer salaries above the poverty line.
    What we have learned through our research is the critical 
importance that college and career readiness plays in college success. 
Compared to high school graduates who are not college- and career-
ready, those who are ready to enter credit-bearing college courses are 
more likely to enroll in college, stay in college, earn good grades, 
and persist to a college degree. And in our latest research study soon 
to be released, we found that gaps in college success among racial/
ethnic groups and by family income narrow significantly among students 
who are ready for college and career.
    There is still much work to be done to ensure that all students 
graduate high school with this level of readiness. Of the 1.5 million 
high school graduates who took the ACT during academic year 2008-2009, 
33 percent were not ready for college-level English, 47 percent were 
not ready for college social science, 58 percent were not ready for 
College Algebra, and 72 percent were not ready for college Biology. 
Overall, only 23 percent were ready to enter college-level courses 
without remediation in any of the four subject areas.
    The remainder of my testimony will focus on the two issues at hand 
today: standards and assessments.
    Allow me to first point out that the natural progression in 
building a cohesive, aligned educational system is not directly from 
standards to assessments, but rather from standards, to interpreting 
those standards into language that teachers and leaders can understand, 
to providing educators professional development on how to effectively 
teach the standards, to assessments that measure student progress 
linked to the standards, all followed by data monitoring and reporting 
to evaluate student progress and guide instruction. Therefore, I 
caution us to not make the assumption that standards and assessments--
alone--are sufficient in and of themselves in ensuring college and 
career readiness for all students.
              implementing the common core state standards
    ACT has played a major role in the State-led Common Core State 
Standards Initiative, which seeks to articulate ``fewer, clearer, and 
higher'' K-12 education standards for voluntary adoption by States. The 
definition of college and career readiness within the Common Core State 
Standards Initiative is modeled on the approach pioneered by ACT. 
Endowed with extraordinary leadership from our Nation's governors and 
education chiefs, we believe that the Common Core initiative can be a 
catalyst for realizing the goal of preparing all students for college 
and career. I would like to address briefly some of the opportunities 
presented by this initiative.
    In our view, the Common Core standards are of high quality, are 
easy to understand, and provide educators at the local level with the 
necessary flexibility to tailor instruction, curriculum, and 
professional development based on their own unique needs and contexts. 
The widespread enthusiasm for the draft common standards is a testament 
to the robust and open process that the initiative leaders established, 
and the hard work of many organizations and individuals from all over 
the Nation in developing, critiquing, and improving these standards.
    One of the distinguishing characteristics of the Common Core State 
Standards Initiative is its insistence that evidence lead the way, 
rather than relying on subjective opinions about what students should 
be able to know and do when they leave high school. Not only did the 
initiative draw on ACT's longitudinal research on what knowledge and 
skills students need to succeed in post-secondary education and 
workforce training, but it sought additional evidence such as research 
from high-performing countries, standards from high-performing States, 
academic research on learning progressions, and other resources to 
support the inclusion of each and every standard within the Common Core 
framework.
    Merely developing college and career readiness standards is not 
sufficient in and of itself. Along with development of standards comes 
the important obligation to validate and strengthen those standards 
periodically in an ongoing process. The linkage between college and 
career readiness and success in post-secondary education and training, 
which has been a hallmark of ACT research, must now become a national 
priority. States have an obligation to ensure, through empirical 
validation--such as valuable feedback from post-secondary and workforce 
institutions to high schools about how well prepared their graduates 
were for college and career--that the level of readiness to which they 
are educating their students is continually being documented as 
sufficient preparation. ACT will be working with States to help 
establish such a validation process.
    Further, our support of the Common Core initiative is predicated on 
the belief that this State-led movement provides a remarkable 
opportunity to better align and improve the essential foundations of 
our Nation's education system around this ambitious goal. We envision a 
future in which States, districts, and schools have fully aligned and 
integrated the core elements of their education infrastructure, 
including:

    <bullet> expectations of what students need to learn and achieve 
through college and career readiness standards;
    <bullet> instructional frameworks that broadly guide high-quality 
teaching and learning;
    <bullet> rich and engaging classroom curricula and content;
    <bullet> assessments aligned to college and career readiness 
standards and to what is taught in the classroom;
    <bullet> systematic use of student data to improve teaching and 
learning;
    <bullet> longitudinal data systems that enable the ongoing 
monitoring of student progress, allowing educators to identify students 
who are falling behind and accelerate them toward college and career 
readiness; and
    <bullet> cohesive professional development programs for teachers 
and school leaders.

    This opportunity to better align these elements--particularly in 
areas where there is a significant disconnect--would represent a 
monumental step toward meeting our national goal of ensuring 
educational equity and excellence for all students.
    While ACT advocates for the better alignment of standards, 
curriculum, instruction, and assessment, we also fully realize that a 
one-size-fits-all model is unlikely to be successful given the 
remarkable diversity of our Nation's 15,000 school districts. 
Ultimately, the success of this initiative will rest with the educators 
and community members at the State and district levels who will be 
responsible for incorporating the standards into daily practice, making 
decisions about instruction and curriculum, and guiding each and every 
student toward college and career readiness.
    Obviously, for many States and districts the transition to 
incorporating college and career readiness standards into daily 
practice will not happen overnight. We should recognize that many 
districts across the country will require additional capacity--both 
financial and human--to manage the transition to fewer, clearer, and 
higher standards.
    For school, district, and State education leaders implementing the 
Common Core State Standards, there are several ways ESEA can provide 
critical assistance:

    <bullet> promote college and career readiness as a fundamental 
national goal and priority for all students;
    <bullet> support States, districts, and schools in developing 
monitoring systems that tell educators whether students are on target 
for college and career readiness at each grade level so that they can 
intervene when students fall behind academically; and
    <bullet> incentivize the implementation of college and career 
readiness standards by working with States to develop an accountability 
system that will meet their evolving demands and allow for nuanced--not 
one-size-fits-all--evaluations of student achievement.
                   improving state assessment systems
    The timing for the development of common standards and the 
reauthorization of ESEA has spurred a productive national dialogue on 
how we can improve the purposes, design, and use of assessments in K-12 
education. ACT has used this opportunity to consult with State and 
local stakeholders to discuss what our own next-generation system 
should look like so that we can continue to be responsive to their 
current and future needs. I want to share some of what we have been 
learning from a wide variety of ACT stakeholders.
    We know that no single assessment instrument is perfectly suited 
for meeting all of the purposes that teachers, education leaders, and 
policymakers have for assessment. When various assessment types are 
used in combination, they can provide a more comprehensive portrait of 
student and school progress than we have had in the past. We believe 
that it is possible to strike the appropriate balances among assessment 
types to meet the multiple and varied needs of educators and 
policymakers while adhering to the highest professional standards.
    We envision States moving toward more cohesive systems, comprised 
of multiple assessment measures and assessment types such as formative, 
interim, end-of-course, summative, and project-based assessments. While 
the widespread adoption of college and career readiness standards will 
help facilitate stronger alignment among the components of the 
assessment system, the assessments should also be designed from the 
start to be compatible with one another. Within such a system, each 
assessment would work with the others to reveal a richer picture of 
student achievement and growth, rather than operate in isolation. Such 
assessments enable us to identify students who are on target, nearly on 
target, or off target for college and career readiness, allowing 
educators to intervene with students who are falling behind.
    The new generation of assessments should represent our highest 
aspirations while remaining sensitive to the pragmatic challenges faced 
by educators at the local and State levels: financial and human 
resources, access to necessary technology for computer-based testing, 
and educational practice. While the national dialogue on future 
assessment is focused on the promise of innovation, we recognize that 
even minor decisions about assessment design can have a significant 
impact on cost, complexity of administration, and scoring and 
reporting. In short, we need to strike an appropriate balance between 
innovation and sustainability.
    What we have learned from State, district, and school leaders is 
informing ACT's development process as we move toward a next-generation 
assessment system. I hope that some of these lessons will be helpful to 
the committee in the reauthorization of ESEA:

    1. College and career readiness is a process, not a single point in 
time. Growth and progress toward readiness must be monitored over a 
student's educational experience, starting in elementary school and 
through high school, so that timely instructional decisions and 
interventions can be made.
    2. Assessments need to be part of a system that is aligned, linked, 
and longitudinal in nature if it is to be an effective tool for 
students, teachers, administrators, and parents in monitoring student 
progress. We must be exceptionally clear in defining the purposes, 
uses, and limits of effective assessment.
    3. State assessment systems should include not only measures of 
academic achievement and growth, but also measures of those academic 
behaviors that influence readiness and educational and career planning.
    4. The unique needs of English Language Learners and students with 
disabilities should be incorporated from the start of the assessment 
design process and with the deep consultation of stakeholders and 
experts.
    5. Assessment formats should be varied according to the type of 
achievement that needs to be measured. These multiple measures can be 
used to offer more comprehensive evaluations of student achievement, 
from multiple-choice and constructed-response assessments to project-
based learning.
    6 Assessment should be offered through multiple platforms. While 
computer-based testing is highly applicable to formative assessments 
that can be conducted on an on-demand basis, paper-and-pencil testing 
may be a reality for States and districts with less technological 
capacity. Until computer access for such large groups of students is 
more available in schools, we need to use both platforms flexibly and 
wisely.
    7. Ongoing, real-time, interactive reporting and access to data by 
multiple stakeholders--especially teachers--is essential if 
stakeholders are to get the most out of assessment results.

    Given our experience at implementing high-quality assessments tied 
to college and career readiness standards, ACT offers the following 
recommendations for the State assessment component of ESEA 
reauthorization:

    <bullet> continue to improve summative State assessments for the 
purposes of student monitoring and accountability measured against the 
standards;
    <bullet> authorize additional resources for States implementing 
college and career readiness standards to develop coherent systems of 
assessment that include innovative measures such as end-of-course, 
project-based, and formative assessments; and
    <bullet> increase the capability of States, districts, and schools 
to more effectively use assessment data to monitor student progress, 
intervene when students are falling behind, and differentiate 
instruction to advance college and career readiness for all students.

    Taken together, our Nation's efforts to strengthen standards and 
assessments will be a critically important accomplishment, but are 
merely two essential pieces of the puzzle. Improvements to standards 
and assessments will not in and of themselves result in dramatic 
improvements in student outcomes. Rather, they set high expectations 
for learning and provide educators with tools to monitor student 
progress towards those expectations. What we have learned from high-
performing countries and high-performing districts domestically is 
that, in order to succeed at improving the college and career readiness 
of our students, we must develop an aligned and coherent system of 
standards, curriculum and instruction, assessment, professional 
development, and student support programs, with all of these components 
contributing to an authentic process of continuous improvement in all 
phases of daily educational practice.
    To say that we are experiencing a watershed moment in the history 
of education in our country is an understatement. We are poised to make 
incredible progress in advancing the preparation of our Nation's 
students for college and career. We have an opportunity to fulfill the 
promises we have been making to our children for decades--that when 
they graduate from high school they will be ready for college and work. 
ACT's research has identified strategies that can help our Nation meet 
this goal. There is still much to be done, and a reauthorized ESEA can 
help accomplish it. We look forward to helping make college and career 
readiness a reality for each and every student.
    I look forward to answering any questions you may have.
                               references
Focusing on the Essentials for College and Career Readiness--Policy 
    Implications of the ACT National Curriculum Survey Results 2009 
    (http://www.act.org/research/policymakers/pdf/
    NCS_PolicySummary2009.pdf).
College Readiness--ACT Research on College and Career Readiness: 
    A Summary of Findings (http://www.act.org/research/policymakers/
    pdf/NCS_PolicySummary2009.pdf).

    The Chairman. Thank you, Dr. Schmeiser, very much.
    Now we turn to Dr. Phillips. Dr. Gary Phillips.

  STATEMENT OF GARY PHILLIPS, Ph.D., VICE PRESIDENT, AMERICAN 
            INSTITUTES FOR RESEARCH, WASHINGTON, DC

    Mr. Phillips. Thank you, Chairman Harkin, Ranking Member 
Enzi, and members of the committee, for the invitation to be 
here today.
    My name is Gary Phillips. I am a vice president and chief 
scientist at the American Institutes for Research.
    I would like to make two central points about No Child Left 
Behind and the reauthorization of the ESEA. First, No Child 
Left Behind has a large loophole that has misled the public, 
and I encourage Congress to close this loophole in the 
reauthorization of the ESEA. Second, Congress should encourage 
States to abandon their outmoded 20th century tests for a new 
generation of technology-based tests that more accurately 
measure growth, that are less burdensome, that are faster and 
cheaper.
    To my first point, the most significant thing wrong with No 
Child Left Behind is a lack of transparency. The consequences 
of failing to meet adequate yearly progress had the unintended 
consequence of encouraging States to lower, rather than raise, 
their own standards. The law inadvertently encouraged the 
States to dumb down their performance standards to get high 
rates of proficiency.
    The fact that States dumb down their performance standards 
can be seen in the figures, Figures 1 and 2, in my full 
statement that I provided to you. The percent proficient in 
these graphs represent what was reported by No Child Left 
Behind in mathematics in 2007. Using Grade 8 as an example, 
according to No Child Left Behind, Tennessee is the highest-
achieving State in the Nation, while Massachusetts is one of 
the lowest.
    There is something wrong with this picture. According to 
NAEP, exactly the opposite is true. Massachusetts is the 
highest-achieving State in the Nation, with Tennessee being one 
of the lowest. I say this with due respect to Senator Lamar 
Alexander.
    If we look deeper into the State standards, we begin to 
explain this contradiction. The grades imposed on the charts in 
the figures I provided to you are from an upcoming report from 
AIR titled ``The Expectations Gap'' that internationally 
benchmarked the State standards and internationally benchmarked 
those standards to the Trends in International Mathematics and 
Science Study, TIMSS. In other words, it benchmarked the 
standards internationally.
    Returning to Grade 8, in my full statement, we see that 
many States obtain high levels of proficiency by lowering their 
standards. The States with the highest levels of proficiency 
require only a D, which is comparable in difficulty to the 
lowest level of mathematics on TIMSS.
    In fact, the correlation between the percent proficient and 
the level of the standard is negative 0.8. This means as States 
lower their standards, they raise their level of reported 
proficiency.
    The difference in the State standard is not just a minor 
accounting irregularity. It has real equity consequences for 
students' opportunity to learn. If my child attends school in a 
State where almost everyone is proficient, what leverage do I 
have as a parent to ask the State to provide a more challenging 
education?
    How big is this expectation gap, the difference between the 
highest and lowest standards across the State? This gap is more 
than twice the size of the national black-white achievement 
gap. The Nation will never be able to close the achievement gap 
until it reduces this bigger gap and all States adopt higher 
standards.
    This helps explain why we do so poorly on international 
comparisons. Many States think they are doing well and feel no 
urgency to improve because almost all their students are 
proficient. They have no idea how they stack up when compared 
to peers outside of their own borders.
    And now to my second point. The outmoded pencil and paper 
tests used in most States are costly and time consuming. States 
claim they teach 21st century skills, but they measure learning 
with 20th century tests. The only way States will modernize and 
take advantage of high-speed technology is with Federal 
funding.
    Furthermore, the outmoded testing paradigm provides poor 
measurement for a large portion of students in the population. 
These tests are too easy for the highest achieving students, 
and they are too hard for the lowest achieving students, 
especially students with disabilities and English language 
learners.
    The $350 million from the Race to the Top assessment fund 
and the reauthorization of the ESEA could provide an 
unprecedented opportunity for States to upgrade their testing 
capacity. I would recommend that the ESEA encourage the future 
consortia of States to use computer-adaptive testing as their 
standard modus operandi.
    These types of tests are already in partial use in many 
States. However, in three States--Delaware, Hawaii, and 
Oregon--the entire State testing program is already computer 
adaptive. Since AIR is the vendor in these three States, I can 
speak with some authority on how these tests operate.
    In all three of these States, the tests consist of multiple 
choice and challenging constructed response items that are both 
administered and scored by the computer. There are no printing 
costs, no scoring costs. In fact, the long-run total cost of 
the system is half that of paper and pencil tests.
    In each of these three States, the test is developed based 
on universal design principles, and the test content is the 
same for each student that is tested. The technology platform 
provides three opportunities to take the test each year. In 
addition, teachers can develop their own formative assessment, 
and interim assessments are also provided, all computer 
adaptive and all on the same scale as the summative test. The 
results are available for each student within 15 seconds.
    In conclusion, I would like to thank you for the 
opportunity to give you my views on the next generation of 
State assessments. Setting internationally competitive 
education standards is a critical national priority.
    Students tomorrow will not be competing with the best 
students in their school. They will be competing with the best 
students in the world. In order to get States to establish high 
standards, you must close the expectations loophole in No Child 
Left Behind and reward States that set high internationally 
benchmarked standards.
    States also need Federal funding in order to embrace the 
next generation of technology-driven assessments. The 
technology for better, faster, and cheaper testing is already 
here. National leadership is needed to move the States in this 
direction.
    Thank you very much.
    [The prepared statement of Mr. Phillips follows:]
             Prepared Statement of Gary W. Phillips, Ph.D.
                                summary
    I would like to make two central points about No Child Left Behind 
and the reauthorization of the ESEA. (1) No Child Left Behind has a 
large loop hole that has misled the public and I encourage Congress to 
close this loop hole in the reauthorization of the ESEA. (2) I will 
propose that Congress encourage States to abandon their outmoded 20th 
century paper/pencil tests for a new generation of 21st century 
technology-based tests that are more accurate, less burdensome, faster, 
and cheaper.
    The most significant thing wrong with NCLB is a lack of 
transparency. The severe consequences of failing to meet AYP had the 
unintended consequence of encouraging States to lower, rather than 
raise, their own standards. The law inadvertently encouraged the States 
to dumb down their performance standards to get high rates of 
proficiency. The fact that States dumb down their performance standards 
can be seen in Figures 1 and 2 in this document. The ``percent 
proficient'' in these tables represent what was reported by NCLB in 
Grades 4 and 8 in mathematics in 2007. Using Grade 8 as an example, we 
see that Tennessee is the highest achieving State in the Nation while 
Massachusetts is one of the lowest. However, if we look deeper into 
State performance standards, we see a different story. The grades 
imposed on the chart are from an upcoming AIR report titled ``The 
Expectation Gap'' that internationally benchmarked State proficient 
standards to the Trends in International Mathematics and Science Study 
(TIMSS). Returning to Figures 1 and 2, we see that many States obtain 
high levels of proficiency by lowering their standards. The States with 
the highest levels of proficiency require only a D, which is comparable 
to the lowest level of mathematics knowledge and skills on TIMSS. In 
fact, the correlation between the percent proficient reported by the 
State and the difficulty of their standards is ^.81. The gap in 
expectations in the State performance standards is not just a minor 
accounting irregularity. It has real equity consequences for a 
student's opportunity to learn. If my child attends school in a State 
where almost everyone is proficient, what leverage do I have as a 
parent to ask the State to provide a more challenging education? The 
expectations gap has major educational consequences. This expectation 
gap is so large that it is more than twice the size of the national 
black-white achievement gap. The Nation will never be able to close the 
achievement gap until it closes the bigger problem of the expectations 
gap. This helps explain why the United States does poorly on 
international comparisons. Many States think they are doing well and 
feel no urgency to improve because almost all their students are 
proficient. They have no idea how they stack up when compared to peers 
outside their own Lake Woebegone. This also helps explain why almost 40 
percent of students entering college need remedial courses. They 
thought they were college ready because they passed their high school 
graduation test--but they were not.
    The outmoded paper/pencil tests used in most States are costly and 
time consuming. States claim they teach 21st century skills but they 
measure learning with 20th century tests. The only way State testing 
will move into the 21st century and take advantage of high-speed modern 
technology is with Federal funding. Furthermore, the current model of 
one-size-fits-all, paper/pencil test provides poor measurement for much 
of the student population. The tests are too easy for high-achieving 
students and too hard for low-achieving students, students with 
disabilities, and English language learners. The $350 million from the 
Race to the Top Assessment Program and the reauthorization of the ESEA 
could provide an unprecedented opportunity for States to upgrade their 
testing capacity. I would recommend that the ESEA encourage the 
consortia of States to use Computer-Adaptive Testing as their standard 
modus operandi. Computer-adaptive tests are already in partial use in 
many States. However, in three States--Delaware, Hawaii, and Oregon--
the entire State testing program is already computer-adaptive. In all 
three of these States, the test consists of multiple-choice items and 
challenging constructed-response items that are both administered and 
scored by computer (no printing cost and no scoring cost). The total 
cost of the computer-adaptive test is half that of a paper/pencil test. 
In each of these three States, the computer-adaptive test is developed 
based on universal design principles, and each test administered to a 
student covers all of the content standards. The technology platform 
provides three opportunities to take the summative test each year (used 
for accountability and Federal reporting). In addition, the computer-
adaptive test administers teacher-developed formative assessments and 
interim assessments all on the same scale as the summative test. The 
results are available for each student within 15 seconds.
                                 ______
                                 
    Thank you Chairman Harkin and members of the committee for the 
invitation to be here today. My name is Gary W. Phillips, and I am a 
Vice President and Chief Scientist at the American Institutes for 
Research (AIR). AIR is a 65-year-old, not-for-profit, nonpartisan 
organization whose mission is to conduct behavioral and social science 
research to improve people's lives and well-being, with a special 
emphasis on the disadvantaged. Previously, I was the Acting 
Commissioner at the National Center for Education Statistics (NCES). My 
career has been devoted to providing policymakers with better data to 
help them improve American education.
    Today I would like to make two central points about No Child Left 
Behind and the reauthorization of the ESEA.

    1. I will demonstrate that No Child Left Behind (NCLB) has a large 
loop hole that has misled the public and I encourage Congress to close 
this loop hole in the reauthorization of the ESEA. Other people will be 
providing you testimony on whether this legislative act will improve 
education. I will focus on whether this legislative act provides enough 
information to know if education has been improved.
    2. I will propose that Congress encourage States to abandon their 
out-moded 20th century paper/pencil-based testing paradigm for a new 
generation of 21st century technology-based tests that are more 
accurate, less burdensome, faster, and cheaper.
                what is wrong with no child left behind?
    The most significant thing wrong with NCLB is a lack of 
transparency. Contributing to this lack of transparency is the fact 
that the NCLB results represent State efforts to reach unattainable 
national goals. For the last quarter century, education reform 
professionals have known that our underachieving educational system has 
put our Nation at risk (A Nation at Risk: The Imperative for Education 
Reform, April 1983). National policymakers have responded to this 
crisis with slogans and unattainable utopian goals, such as ``being the 
first in the world in mathematics and science achievement by 2000'' 
(1990 National Education Goals Panel); or ``all students will be 
proficient in reading and mathematics by 2014'' (No Child Left Behind 
Act of 2001); or ``by 2020 . . . ensure that every student graduates 
from high school well prepared for college and a career'' (A Blueprint 
for Reform: The Reauthorization of the Elementary and Secondary 
Education Act, 2010). A national goal should be high but reachable. A 
good example of a challenging but achievable national goal is the 
Proficient standard used by the National Assessment of Educational 
progress (NAEP) and the National Assessment Governing Board (NAGB). The 
Proficient standard is challenging but achievable by most (although not 
all) students. The new ESEA should contain career and college-ready 
national goals that are internationally competitive but not so high 
that they are unattainable by States and schools.
    The greatest contributor to the lack of transparency in NCLB, 
however, is the misleading data used by policymakers to monitor 
progress toward the goals (referred to as Adequate Yearly Progress). 
Both the Federal Government and the States have an unfortunate history 
of presenting flawed State testing data to the public.
    From 1984 to 1989, the U.S. Department of Education compared State 
performance using the Wall Chart that showed average State aggregates 
of SAT and ACT scores. The Wall Chart was used even though it was 
widely criticized because it measured only the self-selected college-
bound population. The larger the percentage of the population taking 
the SAT or ACT tests, the lower the State's ranking on the Wall Chart. 
The States with the least number of students heading for college tended 
to have the highest ranking. In fact, the 1986 correlation between the 
SAT and the proportion of college-bound students was ^0.86 (College 
Board, 1986). The fact that it was a misleading indicator due to self-
selection did not deter the department from using the system for 6 
years under two Secretaries of Education, Terrell H. Bell and William 
J. Bennett.
    In 1987, a West Virginia physician produced a report in which he 
stated that he had found that on norm-referenced tests, all 50 States 
were claiming they were above the national average (Cannell, 1987). 
This so-called Lake Woebegone report sparked much interest in 
Washington because it was hoped that norm-referenced tests might 
overcome some of the problems of the SAT and ACT in the Wall Chart as 
indicators of State-by-State performance. Although this was a black eye 
for educators, the practice continues today. States are still asked to 
explain how they can be above the national average on their norm-
referenced test when they are below the national average on the 
National Assessment of Educational progress (NAEP).
    The biggest flaw in State testing data, however, is in use today in 
all States, sanctioned and encouraged by the No Child Left Behind Act 
of 2001. NCLB provides a new type of Wall Chart where again State 
aggregates are not comparable and are misleading. The most significant 
thing wrong with NCLB is a lack of transparency. The severe 
consequences of failing to meet AYP had the unintended consequence of 
encouraging States to lower, rather than raise, their own standards. 
The law inadvertently encouraged the States to dumb down their 
performance standards to get high rates of proficiency. The fact that 
States dumb down their performance standards can be seen in Figures 1 
and 2 in this document. The ``percent proficient'' in these tables 
represent what was reported by NCLB in Grades 4 and 8 in mathematics in 
2007. In my remaining remarks I will use Grade 8 to illustrate my 
points. In Grade 8 we see that Tennessee is the highest achieving State 
in the Nation while Massachusetts is one of the lowest. If parents were 
looking to raise a family in a State with an excellent track record of 
success based on NCLB data, they should move their family to Tennessee. 
However, there is something wrong with this picture. We know that NAEP 
reports exactly the opposite with Massachusetts the highest achieving 
State and Tennessee being one of the lowest achieving States.
    However, if we look deeper into State performance standards, we can 
begin to explain this contradiction. The grades imposed on the chart 
are from an upcoming AIR report titled ``The Expectation Gap'' that 
internationally benchmarked State proficient standards to the Trends in 
International Mathematics and Science Study (TIMSS) (Phillips, 2010). 
The report then expressed the international benchmarks as international 
grades. To do this I statistically linked the test in each State to the 
Trends in International Mathematics and Science Study (TIMSS) and 
expressed the State standards as international grades on a comparable 
scale. (A = Advanced, B = High, C = Intermediate, D = Low). This gives 
policymakers an international benchmarked common metric by which to 
compare State performance standards. Returning to Grade 8 we see that 
many States obtain high levels of proficiency by lowering their 
standards. The States with the highest levels of proficiency require 
only a D, which is comparable to being below the Basic standard on NAEP 
and the lowest level of mathematics knowledge and skills on TIMSS. On 
the other hand, the States with the lowest levels of proficiency 
require the highest standards (where a B is comparable to the 
Proficient standard on NAEP and equal to the High level on TIMSS). In 
fact, the correlation between the percent proficient reported by the 
State under NCLB and the difficulty of their standards is ^.81.
    The gap in expectations in the State performance standards is not 
just a minor accounting irregularity. It has real equity consequences 
for a student's opportunity to learn. If my child attends school in a 
State where almost everyone is proficient, what leverage do I have as a 
parent to ask the State to provide a more challenging education? The 
gap in expectations has major educational consequences. The difference 
between the standards in Massachusetts and the standards of the States 
with the lowest standards is about two standard deviations. This gap in 
expectations is so large that I would like to take a minute to impress 
on you just how large it is.

    1. This expectation gap is so large that it is more than twice the 
size of the national black-white achievement gap. The Nation will never 
be able to close the achievement gap until it closes the bigger problem 
of the expectations gap.
    2. The gap in expectations represents two-to-three grade-level 
differences between what the States are expecting their students to 
know and be able to do. What the low-standard States are expecting in 
middle school is comparable in difficulty to what Massachusetts 
expected back in elementary school.
    3. The Massachusetts proficient standard is at the 54th percentile. 
If Massachusetts used the Tennessee proficient standard in 
Massachusetts it would be at the 4th percentile.

    This helps explain why the United States does poorly on 
international comparisons. Many States think they are doing well and 
feel no urgency to improve because almost all their students are 
proficient. They have no idea how they stack up when compared to peers 
outside their own Lake Woebegone. This also helps explain why almost 40 
percent of students entering college need remedial courses. They 
thought they were college-ready because they passed their high school 
graduation test--but they were not.
    We should note that not all States are achieving high rates of 
proficiency by lowering their standards. For example, Hawaii is a small 
and relatively poor State that has made the right policy decision that 
is in the best interest of its children by requiring high standards 
(just under those in Massachusetts), although student performance is 
relatively low. Even though the State has been internally criticized 
for having too high standards, the State leadership has maintained the 
high standards and the student's performance in Hawaii have gradually 
improved (as indicated by their NAEP scores) over the years.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    How would the 2007 State results reported to NCLB have looked had 
all the States used a common performance standard that was comparable 
in difficulty to the High International Benchmark on TIMSS? Had this 
been done, then all of the States would have reported their percent 
proficient based on performance standards of comparable difficulty 
using a level playing field. Figure 4 gives an example of what this 
might have looked like for Grade 8 mathematics--a dramatically 
different picture of State performance. We see that when all the States 
use an internationally competitive common performance standard, the 
performance in Tennessee drops from 88 percent to 21 percent. Now 
Massachusetts is the highest achieving State. If the parents mentioned 
above were using the information shown in Figure 4 to choose a State in 
which to live, where their children would attend schools with the 
highest educational expectations and achievement, they might choose 
Massachusetts.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    the need for a new generation of technology-based state testing
    NCLB requires that States develop their own tests but does not 
provide funding for doing so. Therefore, States suffering budget 
cutbacks have no incentive to try new and better approaches to testing. 
The outdated pencil/paper tests used in most States require costly and 
time-consuming administration, followed by costly and time-consuming 
scoring, followed by costly and time-consuming reporting. With spring 
testing, getting test results back to teachers and parents before the 
summer recess is nearly impossible. States like to claim they teach 
21st century skills but they measure learning with 20th century tests. 
The only way State testing will move into the 21st century and take 
advantage of high-speed modern technology is with Federal funding. 
Furthermore, the current model of one-size-fits-all, paper/pencil test 
provides poor measurement for much of the student population. The tests 
are too easy for high-achieving students and too hard for low-achieving 
students, students with disabilities, and English language learners.
    The $350 million from the Race to the Top Assessment Program and 
the reauthorization of the ESEA could provide an unprecedented 
opportunity for States to upgrade their testing capacity. In the near 
future, many States are likely to function as consortia and adopt the 
Common Core Standards developed by the Council of Chief State School 
Officers (CCSSO) and the National Governors Association (NGA). I would 
recommend that the ESEA encourage the consortia of States to use 
Computer-Adaptive Testing as their standard modus operandi.
    Computer-adaptive tests are already in partial use in many States. 
However, in three States--Delaware, Hawaii, and Oregon--the entire 
State testing program are already computer-adaptive. Since AIR is the 
vendor for these three States I can speak with some authority on how 
their computer-adaptive tests operate. In all three of these States, 
the test consists of multiple-choice items and challenging constructed-
response items that are both administered and scored by computer (no 
booklet printing cost and no scoring cost). The total cost of the 
computer-adaptive test is half that of a paper/pencil test. In each of 
these three States, the computer-adaptive test is developed based on 
universal design principles, and each test administered to a student 
covers all of the content standards. The technology platform provides 
three opportunities to take the summative test each year (used for 
accountability and Federal reporting). In addition, the computer-
adaptive test administers formative assessments (developed and used by 
teachers for diagnostic purposes) and interim assessments (used by 
teachers to get an early fix on how much students are progressing 
during the year) all on the same scale as the summative test. The 
results are available for each student within 15 seconds. Not only are 
these assessments faster and cheaper, but computer-adaptive testing 
yields more accurate measurement for high- and low-achieving students 
and better measurement for students with disabilities and English 
language learners.
        what should be included in the reauthorization of esea?
    Common content standards and common performance standards should be 
included in the reauthorization of ESEA. The CCSSO and the NGA are 
currently developing common content standards. Content standards 
represent the scope and sequence of content that should be taught in 
the schools. This is an important first step in creating transparency 
and accountability in ESEA. However, this needs to be followed by an 
equally important second step--establishing common performance 
standards. Performance standards represent how much, of what is taught, 
students are expected to learn. Because every student cannot learn 
everything that is taught in every grade and every subject, educators 
need a realistic performance goal. This performance standard needs to 
be common to all the States (or consortium of States) so that all the 
States have a level playing field. Each State does not get to set its 
own bar. The United States cannot be internationally competitive in our 
educational achievement if States are going in 50 different directions 
(different content standards) and have 50 different expectations of 
what their students should learn (different performance standards).
    Computer-adaptive testing and the use of the best available modern 
technology should be included in the reauthorization of the ESEA. The 
reauthorized ESEA should encourage and fund States to use modern 
technology to administer, score, and report results. The best of all 
options is computer-adaptive testing that provides a more reliable 
measurement of student achievement involving less time, fewer items, 
and less cost. Computer-adaptive testing also provides better 
measurement for both high-achieving students and low-achieving students 
such as students with disabilities and English language learners.
    In conclusion, I would like to thank you for the opportunity to 
give you my views on the next generation of State assessments. Setting 
internationally competitive education standards is a critical national 
priority. Students tomorrow will not be competing with the best 
students in their school. They will be competing with the best students 
in the world. In order to get States to establish high standards you 
must close the expectations loop hole in NCLB and reward States that 
set high internationally benchmarked standards. States also need 
Federal funding in order to embrace the next generation of technology-
driven assessments. The technology for better, faster and cheaper 
testing already exists. National leadership is needed to move the 
States in this direction.
                               References
Bandeira de Mello, V., Blankenship, C., and McLaughlin, D. (2009). 
    Mapping State Proficiency Standards onto NAEP Scales: 2005-2007 
    (NCES 2010-456). National Center for Education Statistics, 
    Institute of Education Sciences, U.S. Department of Education. 
    Washington, DC.
Cannell, J.J., (1987), Nationally Normed Elementary Achievement Testing 
    in America's Public Schools: How All 50 States Are Above the 
    National Average, Friends for Education, Daniels, WV.
College Board, (1986), Press statement for release of 1986 SAT scores. 
    New York: The College Board.
Phillips, G.W., (2010), The Expectation Gap: Internationally 
    Benchmarking State Performance Standards, American Institutes for 
    Research, Washington, DC.

    The Chairman. Well, Dr. Phillips, thank you very much for 
that thought-provoking statement.
    Next, we turn to Dr. Rivera. Dr. Rivera, welcome. Please 
proceed.

STATEMENT OF CHARLENE RIVERA, Ed.D., EXECUTIVE DIRECTOR, GEORGE 
   WASHINGTON UNIVERSITY CENTER FOR EQUITY AND EXCELLENCE IN 
                   EDUCATION, ALEXANDRIA, VA

    Ms. Rivera. Thank you.
    Good afternoon, Chairman Harkin, Ranking Member Enzi, and 
members of the HELP Committee. I am very pleased to be here 
today to have this opportunity to speak to you about this 
issue.
    I am Charlene Rivera, research professor at the George 
Washington University and executive director of the Center for 
Equity and Excellence in Education at the university.
    Many years ago, I was a bilingual teacher in the Boston 
Public Schools and now have the opportunity to conduct research 
that relates to English language learners.
    I am pleased to offer my perspective on how the Common Core 
standards and assessments should address and measure academic 
outcomes for English language learners. I also would like to 
address the challenges faced in developing assessments that can 
support teaching and learning for these students.
    Initially, however, it is very important for all of us to 
really know who these English language learners are. And while 
constructing a coherent system of standards, instruction, and 
assessment that can address all these students, including 
English language learners, it is important to take into account 
the need for the Common Core standards and new assessment 
system or systems to recognize and address the linguistic needs 
of these students.
    To recognize that English language learners need 
instruction in academic language to acquire subject matter 
proficiency--and I am defining academic language as the 
language that is used in school to help students acquire and 
use knowledge--to acknowledge that English language proficiency 
standards and assessments are distinct from English language 
arts standards and assessments, and finally, to recognize that 
implementation is key to success of the new system.
    English language learners are not a homogenous group, and 
attention to their different characteristics is essential to 
helping them succeed and be college ready. These students 
differ in their level of English language proficiency, ethnic 
background, socioeconomic status, quality of prior schooling, 
and literacy level in their first language.
    Many English language learners are economically and 
educationally disadvantaged and attend high-poverty schools. 
These schools often lack the educational resources and 
personnel knowledgeable about how to teach these students. 
Effectively educating English language learners requires 
adjusting or differentiating instructional approaches, content 
instruction, and assessment.
    The Common Core standards and new assessment system must 
address the linguistic needs of these students. However, 
because the English language arts standards are developed with 
native English-speaking students in mind, it is important to 
consider the role and use of English language proficiency 
standards and assessments.
    It will be important to articulate the relationship and to 
clearly delineate expectations for when instruction in English 
language arts versus English language proficiency is 
appropriate for English language learners. This specification 
should be established in every State or consortium of States by 
a working committee of English language learner and English 
language arts experts.
    This group should use data to determine at what point along 
the continuum of learning English, English language learners at 
low levels of English language proficiency should be held 
accountable for English language arts standards. For these 
students, it is seriously worth considering substituting the 
English language proficiency reading and writing standards and 
assessments as measures of reading and writing achievement, at 
least for a short period of time.
    With regard to the Common Core mathematic standards, it is 
important to consider whether these students need to be 
addressed only in English--or whether these standards need to 
be addressed only in English or if they can also be addressed 
in students' native languages.
    Successful implementation of the new system requires 
changes to teacher preparation and in-service professional 
development programs. These programs must build the capacity of 
content and English as a second language for teachers to 
differentiate instruction and classroom assessment and, in 
addition, to teach the academic language required for English 
language learners to be successful in academic content.
    English language learner experts must be involved at every 
level of design and implementations. States should consider the 
needs of English language learners in the new standards and 
assessment system. State policies must address how these 
students are identified and address procedures for including 
and accommodating students in summative benchmark and classroom 
assessments. Most importantly, the new assessment system must 
be valid and reliable for all students, including English 
language learners.
    At the Federal level, the Department of Education needs to 
improve the review and monitoring of the standards and 
consortium assessment systems. It is crucial that the review 
processes explicitly address English language learners and that 
the reviewers have the necessary expertise and knowledge to 
evaluate the adequacy of the assessment system for these 
students.
    In conclusion, the design of assessment and accountability 
systems and their implementation must address the linguistic 
diversity and other characteristics of English language 
learners. To be successful, the system must ensure that the 
standards and assessment processes address academic language as 
well as English language proficiency. It must be recognized 
that academic language is a barrier for English language 
learners and needs to be taught explicitly.
    I have great expectations for the ESEA reauthorization and 
look forward to an interconnected system of standards, 
instruction, and assessment that works for all students, 
including English language learners.
    Thank you for the opportunity to speak today, and I will be 
happy to answer any questions.
    [The prepared statement of Ms. Rivera follows:]
              Prepared Statement of Charlene Rivera, Ed.D.
                                summary
    It is imperative that the needs of English language learners (ELLs) 
are addressed in the reauthorization of ESEA. ELLs are not a homogenous 
group and attention to their different characteristics is essential to 
meaningfully instructing and assessing them.
    Although English language proficiency (ELP) and English language 
arts (ELA) are related and even list the same skills (listening, 
reading, and writing), presumptions about students' background and 
basic competencies in English differ. For ELLs at low levels of ELP it 
is worth considering substituting the ELP reading and writing standards 
and assessments as measures of their reading and writing achievement.
    A crucial factor for ELLs to meet standards is being able to 
understand and use the academic language or academic English of 
different disciplines. While a mastery of academic language is 
demanding for all students, it can be especially difficult for students 
who already struggle with other linguistic challenges, such as ELLs and 
former ELLs. In a reauthorized ESEA, resources should be allotted to 
States to work toward the development of a broad national framework 
that captures the many dimensions of academic English.
    States should consider the needs of ELLs in the new standards and 
assessment system. Policies must address how ELLs are defined, and 
address procedures for including and accommodating them in summative, 
benchmark, and classroom assessments. There is great need to clearly 
distinguish the linguistic needs of ELLs from cognitive, processing, or 
physical needs of students with disabilities. The delineation of policy 
at the State and consortium levels is important and should guide 
practice for the new assessment system which must be valid and reliable 
for all students including ELLs.
    At the Federal level, ED must improve the review and monitoring of 
the standards and assessment systems. It is crucial that the review 
processes explicitly address ELLs and that the reviewers have the 
appropriate expertise and knowledge.
    In conclusion, the design of assessment and accountability systems 
and their implementation must consider the linguistic diversity and 
other characteristics of ELLs. To be successful, the system must ensure 
that the standards and assessment processes address academic language 
as well as English language proficiency. Teacher preparation and in-
service professional development programs must build the capacity of 
content and ESL teachers to differentiate instruction and assessment 
for ELLs, as well as teach ELLs the academic language required to 
successfully access the academic content. ELL experts must be involved 
at every level of design and implementation. I have great expectations 
for the ESEA reauthorization and look forward to an interconnected 
system that works for English language learners.
                                 ______
                                 
    Chairman Harkin, Ranking Member Enzi, and members of the HELP 
committee, thank you for inviting me to testify today and offer my 
perspective on how the common core standards and assessments should 
address and measure academic outcomes for English language learners, or 
ELLs. I also will address the special challenges faced in developing 
assessments which provide information that can support teaching and 
learning for ELLs.
    Initially, however, it is important that we clearly define and have 
a shared understanding of ELLs. Also while constructing a coherent 
system of standards, instruction, and assessment that can address all 
students including ELLs, it is important to take into account:

    <bullet> the need for the Common Core Standards and new assessment 
system(s) to recognize and address the linguistic needs of ELLs;
    <bullet> that ELLs need academic language to acquire subject matter 
proficiency; and
    <bullet> that English language proficiency (ELP) standards and 
assessments are distinct from English language arts (ELA) standards and 
assessments.

    U.S. schools serve over 5 million ELLs. These learners are 
scattered across the United States and are highly mobile. About 10 to 
12 percent of students in public schools are ELLs. While the number of 
ELLs continues to increase in Northeast and Western States that 
traditionally have had large numbers of ELLs, more recently, the 
Southeast and Midwest have seen dramatic increases. The impact of these 
demographic changes on schools makes it imperative that the needs of 
the ELL population are addressed in the Blueprint and supporting 
proposals guiding the reauthorization of ESEA.
    ELLs are not a homogenous group and attention to their different 
characteristics is essential to meaningfully instructing and assessing 
them. One important example is the level of English language 
proficiency, but ELLs also differ in ethnic background, socioeconomic 
status, quality of prior schooling, and first or native language, 
including literacy in their first language. Many ELLs are economically 
and educationally disadvantaged and attend high-poverty schools. All 
too often the schools ELLs attend lack the educational resources and 
personnel knowledgeable about how to teach them the academic English or 
academic language needed to acquire the content knowledge and skills 
needed to reach high academic standards, graduate from high school, and 
be college ready.
    As Short and Fitzsimmons (2007) argue, ELLs must ``perform double 
the work of native English speakers in the country's middle and high 
schools'' (p. 1) because they are studying content area subjects 
through a language in which they are not yet fully proficient. In order 
to understand and apply academic concepts, students must be able to 
interpret and produce complex oral and written language.
    Effectively educating these students requires adjusting or 
differentiating instructional approaches, content instruction, and 
assessment in ways that take into consideration their differences. 
However, practices for identifying who is an ELL are not systematic 
across or sometimes even within States. Therefore, one of the basic 
issues to address in a reauthorized ESEA is clearly defining the ELL 
subgroup by requiring all schools and districts within a State to apply 
comparable screening, entry, and exit criteria.
    As recommended by the Working Group on ELL Policy, a reauthorized 
ESEA should require States to establish stable ELL subgroup membership 
for accountability purposes (see Working Group on ELL Policy 
Recommendations at http://ellpolicy.com). Currently, new ELLs with 
lower levels of ELP enter the subgroup, while students who attain 
proficiency in English no longer belong to the subgroup. It is the only 
subgroup whose composition changes in this way.
    Additionally, I recommend that the new iteration of ESEA use the 
term English language learner or ELL rather than the term limited 
English proficient students. Just as we do not label first year physics 
students limited physics students we should not call students in the 
process of learning English limited-English speakers (LaCelle Peterson 
& Rivera, 1994).
    Now I will discuss how the common core standards and assessments 
should address and measure academic outcomes for English language 
learners. The new common core standards were developed to provide a 
``clear and consistent framework to prepare . . . (students) for 
college and the workforce'' (NGA & CCSSO, 2010). While the standards 
are intended to address all students, ELL experts were not invited to 
be part of the initial development process. Nonetheless, members of the 
Working Group on ELL policy and others have since examined the 
standards and made recommendations regarding how they should be refined 
to better address the needs of ELLs. These recommendations should be 
considered and incorporated, as appropriate, into revisions of the 
common core standards.
    With regard to the ELA standards, special attention needs to be 
given to how and at what point ELLs will be expected to acquire and be 
assessed in the standards. Because the new common core ELA standards 
were developed with native English speaking students in mind, it is 
important to consider the role and use of ELP standards and 
assessments. Although ELP and ELA are related and even list the same 
skills (listening, reading, and writing), presumptions about students' 
background and basic competencies in English differ. Thus, it will be 
important to articulate the relationship between the two sets of 
standards and to clearly delineate expectations for when instruction in 
ELA versus ELP is appropriate for ELLs. This specification should be 
established in every State or consortium of States by a working 
committee of ELL and ELA experts using data from current studies of ELA 
and ELP, as appropriate and available. This committee will need to 
examine a State's ELP standards and determine at what point along the 
continuum of learning to speak, read, and write English ELLs at low 
levels of ELP should be held accountable for ELA standards. This 
clarification is exceedingly important if States, districts, and 
schools are to implement and assess the ELA standards in a meaningful 
way for ELLs as well as for all other students. For ELLs at low levels 
of ELP, since the ELA continuum starts with the assumption that it is 
addressing native speakers of English, then it is worth considering 
substituting the ELP reading and writing standards and assessments as 
measures of reading and writing achievement for these students.
    With regard to mathematics standards, it is important to consider 
whether these standards need to be addressed only in English or if they 
can also be addressed in students' native languages. The underlying 
competencies reflected in the common core standards are benchmarked to 
international standards and, thus, are based on knowledge and skills 
that transcend English language proficiency.
    Implicit in the national mathematics standards, for example, is the 
expectation that students can explain methods for solving problems as 
well as describe, classify, and understand relationships. A crucial 
factor in meeting these expectations is being able to understand and 
use the academic language or academic English of different disciplines. 
While a mastery of academic language is demanding for all students, it 
can be especially difficult for students who already struggle with 
other linguistic challenges, such as ELLs and former ELLs.
    In a reauthorized ESEA, resources should also be allotted to States 
to work toward the development of a broad national framework that 
captures the many dimensions of academic English (Anstrom, DiCerbo, 
Butler, Katz, Millet, & Rivera, 2010). Currently, the connection 
between grade-level content goals and the language needed to attain 
these goals is not made explicit in national or State content 
standards. Few educators at either the district or school level have 
the resources, time or training to perform the kind of linguistic 
analysis needed to reveal the academic language that creates the most 
difficulty for ELLs. To this end, The George Washington University 
Center for Equity & Excellence in Education (GW-CEEE), developed a 
process to identify the academic language used in assessments, 
textbooks, and other instructional materials (Anstrom & DiCerbo, in 
press).
    Until a new assessment system is established, it is important for 
States to continue to work with their existing academic assessments to 
ensure validity and reliability as well as accessibility to ELLs at 
different levels of ELP. While many States use accommodations as an 
approach to make assessments accessible to ELLs, accommodations in the 
different content areas need to be studied and refined to ensure that 
they address the linguistic needs of ELLs at basic, intermediate, and 
advanced levels of levels of ELP. For example, ELLs with basic ELP may 
benefit more from oral forms of linguistic support and native language 
support (Pennock-Roman & Rivera, 2010). More research needs to be 
carried out to determine the most appropriate accommodations, including 
in ELLs' native languages.
    In the interim, States should continue to refine their State 
assessment policies and communication of those polices to district and 
school staff responsible for administering State assessments. In the 
policies, there is great need to clearly distinguish the linguistic 
needs of ELLs from cognitive, processing, or physical needs of students 
with disabilities (Shafer Willner, Rivera, & Acosta, 2008). In 
addition, States need to refine their communication of the policy to 
district and school staff responsible for administering content 
assessments so the criteria for administering the assessment and 
determining appropriate accommodations for individual students are 
consistent across a State. States should be encouraged to establish 
and/or improve their systems for monitoring the progress of their ELLs 
and former ELLs to understand better the relationship of their English 
language and content knowledge proficiency throughout schooling. 
Finally, it is important to encourage States to report academic 
achievement by ELP status and to use these data to make instructional 
adjustments.
    Next I will address the special challenges faced in developing and 
implementing assessments which provide information that can support 
teaching and learning. The five design principles proposed by NGO/CCSSO 
in the Common Core Standards hold great promise. It is essential, 
however, for the learning needs of ELLs, students with disabilities and 
other special populations to be taken into consideration while the 
system is being designed, implemented, and evaluated. To address the 
needs of ELLs, individuals need to be involved who are knowledgeable 
about second language acquisition, academic English, second language 
testing, and best practices for instructing second language learners in 
subject matter content. Equally important, assessments will need to be 
designed and implemented so ELLs at different levels of English 
language proficiency are able to access the content of summative, 
benchmark, and classroom assessments in English.
    Development of an integrated learning system implies that, while 
the goals remain the same, the learning needs of different groups of 
students must be distinguished and teachers of academic content and 
teachers of language must be prepared to instruct and assess ELLs at 
different levels of English language proficiency. A successful system 
will require retooling of teacher preparation and in-service 
professional development programs to build the capacity of content and 
ESL teachers to differentiate instruction and assessment for ELLs, as 
well as to teach ELLs the academic language they need to access the 
academic content.
    For students in bilingual and dual language situations, it will 
require teaching and assessing students in the native language as well 
as in English. For these programs, it is necessary to ensure the 
content standards and assessments are parallel to the new Common Core 
Standards.
    Every State and consortium should establish an assessment Technical 
Advisory Committee (TAC) that includes second language testing experts 
and second language acquisition specialists. The TAC should be 
responsible for reviewing and commenting on policies, recommending 
research to be carried out, and providing advice on implementation and 
refinement of the assessment system.
    The delineation of policy at the State and consortium levels is 
important and should guide practice for the new assessment system. 
Policies must be developed that clearly define when ELLs are to be 
included in an assessment, what accommodations are available in English 
and in the native language for each content area assessed in summative, 
benchmark, and classroom assessments, and what implementation 
procedures are to be followed when assessing ELLs at different levels 
of ELP.
    Finally, as part of improving the design of assessments, it is 
necessary to consider what processes the Department of Education (ED) 
or other external reviewers will use to evaluate the new assessment 
systems. Currently two processes are in place to assess the adequacy of 
assessments, standards and assessment peer review and title I 
monitoring, however the processes are not aligned. Whatever review 
procedures are put in place for the new assessment systems, it is 
important to ensure the alignment of these processes and that one or 
more of the individuals involved in a review have knowledge of second 
language acquisition, language testing, and instruction of ELLs (Shafer 
Willner, Rivera, & Acosta, 2010).
    In conclusion, the design of assessment and accountability systems 
and their implementation must consider the linguistic diversity and 
other characteristics of ELLs. To be successful, the system must ensure 
that the standards and assessment processes addresses academic language 
as well as English language proficiency. Teacher preparation and in-
service professional development programs must build the capacity of 
content and ESL teachers to differentiate instruction and assessment 
for ELLs, as well as teach ELLs the academic language required to 
successfully access the academic content. ELL experts must be involved 
at every level of design and implementation. States should consider the 
needs of ELLs in the new standards and assessment system. Policies must 
address how ELLs are defined, and address procedures for including and 
accommodating ELLs in summative, benchmark, and classroom assessments. 
Most importantly the new assessment system must be valid and reliable 
for all students including ELLs. At the Federal level, ED must improve 
the review and monitoring of the standards and assessment systems. It 
is crucial that the review processes explicitly address ELLs and that 
the reviewers have the necessary expertise and knowledge.
    I have great expectations for the ESEA reauthorization and look 
forward to an interconnected system that works for English language 
learners.
                               References
Anstrom, K., DiCerbo, P., Butler, F., Katz, A., Millet, J., & Rivera, 
    C. (2010). A Review of the Literature on Academic English: 
    Implications for K-12 English Language Learners. Arlington, VA: The 
    George Washington University Center for Equity and Excellence in 
    Education.
Anstrom, K. & DiCerbo, P. (in press). Final Report: Linking Academic 
    Language to Academic Standards. Arlington, VA: The George 
    Washington University Center for Equity and Excellence in 
    Education.
LaCelle Peterson, M. & Rivera, C. (1994). Is it real for all kids? A 
    framework for equitable assessment policies for English language 
    learners. Harvard Educational Review, 64(1) 55-75.
NGA & CCSSO. (2010) Common Core Standards Initiative. http://www.core
    standards.org/.
Working Group on ELL Policy. (2010). Recommendations for ESEA 
    Reauthorization. http://www.corestandards.org/.
Pennock-Roman, M. & Rivera, C. (2010). Mean Effects of Test 
    Accommodations for ELLs and Non-ELLs: A Meta-Analysis. Denver, 
    Colorado: Paper presented at the annual meeting of the American 
    Educational Research Association.
Shafer Willner, L., Rivera, C., and Acosta, B. (2010). Examination of 
    Peer Review and Title I Monitoring Feedback Regarding the Inclusion 
    and Accommodation of English Language Learners in State Content 
    Assessments. Arlington, VA: The George Washington University Center 
    for Equity and Excellence in Education.
Shafer Willner, L., Rivera, C., & Acosta, B. (2008). Descriptive 
    analysis of State 2006-2007 content area accommodations policies 
    for English language learners (2008). Prepared for the LEP 
    Partnership, U.S. Department of Education. Arlington, VA: The 
    George Washington University Center for Equity and Excellence in 
    Education. Available: http://ells.ceee.gwu.edu.
Short, D. & Fitzsimmons, S. 2007. Double the Work: Challenges and 
    Solutions to Acquiring Language and Academic Literacy for 
    Adolescent English Language Learners. A report commissioned by the 
    Carnegie Corporation of New York. Washington, DC: Alliance for 
    Excellent Education. http://www.all4ed.org/files/DoubleWork.pdf.

    The Chairman. Thank you very much, Dr. Rivera.
    Now we turn to Dr. Thurlow, National Center on Educational 
Outcomes from the University of Minnesota.
    Welcome. Please proceed.

 STATEMENT OF MARTHA THURLOW, Ph.D., DIRECTOR, NATIONAL CENTER 
            ON EDUCATIONAL OUTCOMES, MINNEAPOLIS, MN

    Ms. Thurlow. Chairman Harkin, Ranking Member Enzi, and 
other members of the committee, thank you for asking me to 
speak today. And I am going to do the best I can because I am 
suffering from allergies and too much plane riding.
    I work with States and districts on the inclusion of 
students with disabilities in assessments, standards-based 
reform, accommodations, alternate assessments, and graduation 
requirements. Today, I want to share what we have learned from 
research and practice that is relevant to the discussion here.
    Students with disabilities who receive special education 
number 6.6 million students and make up 13 percent of public 
school enrollment. They are disproportionately poor, minority, 
and English language learners. The vast majority of them--about 
80 to 85 percent--are students without intellectual 
impairments.
    After decades of being excluded from State and district 
assessments, their participation has now increased to about 97 
percent, due in large part to the requirements of ESEA and 
IDEA. Their academic performance is also increasing. In many 
cases, students with disabilities have surprised their 
teachers, their parents, and themselves sometimes by mastering 
content that before standards-based reform was never taught to 
them.
    Clear, well-defined content standards are the foundation 
for improved outcomes for all students. The potential benefits 
of Common Core standards for students with disabilities are 
great if we can avoid inadvertently developing them in a way 
that makes it impossible to accurately measure all the content. 
Clear, well-defined content standards also make it possible to 
provide appropriate accommodations for students with 
disabilities, both for instruction and assessments.
    We have made tremendous strides in accessible assessments 
for students with disabilities during the past decade. It is 
critical that during the development process, we think of all 
students, clearly define what each assessment is intended to 
measure and how that content can be measured for all students.
    Retrofitting assessments with accommodations and developing 
a series of alternate assessments because the general 
assessments do not work for all students is expensive for 
schools and stigmatizing for students. We also know from title 
I past practices that out-of-level testing for accountability 
purposes does not work to improve achievement. It only works to 
make adults feel better about poor student performance.
    As a long-time special educator and assessment expert, I 
believe that our greatest challenges in improving achievement 
for students with disabilities are not in the area of the 
assessments. The greatest challenges are in delivering high-
quality instruction in the standards-based curriculum to every 
student with a disability.
    Although there are some ways in which assessments can be 
improved, unless we provide students with disabilities greater 
access to the curriculum, making sure that they have 
individualized instruction, appropriate accommodations, and 
other supports that they need to succeed, achievement is going 
to remain low.
    With clear and specific standards, teacher capacity to 
adjust teaching for individual needs can occur without losing 
the content or performance expectations. These practices will 
also ensure that other students who are low-performing, 
predominantly students who are poor and of minority status, but 
without identified disabilities, also can achieve at higher 
levels.
    The discussion should not be about whether students with 
disabilities can learn to proficiency as defined for all 
students, it must be about whether we have the will and 
commitment to make it happen. We must build on the research 
that has shown that where there is shared responsibility and 
collaboration among staff and where students are held to high 
expectations and are provided specialized instruction, 
supports, and accommodations so that they meet those high 
expectations, students can achieve at higher levels and be 
prepared for college and careers.
    It is too easy to explain away the gaps in achievement for 
students with disabilities by characterizing these students as 
children to be pitied, who should not be held to the same 
standards as others because of their disabilities. This 
characterization is inconsistent with what we know about 
students with disabilities, and it flies in the face of the 
purpose of special education. We should expect to see a value-
added benefit from the Federal commitment to supplementing 
State and local funding for special ed services.
    This benefit will be realized through the unwavering 
expectation that all students with disabilities receive high-
quality and specialized instruction, have universal access to 
the challenging grade-level curriculum that is the right of all 
students, and participate in rigorous and inclusive assessments 
of their learning.
    Thank you.
    [The prepared statement of Ms. Thurlow follows:]
             Prepared Statement of Martha L. Thurlow, Ph.D.
    <bullet> Students with disabilities who receive special education 
number 6.6 million, 13 percent of public school enrollment, and are 
disproportionately poor, minority, and English-language learners, and 
the vast majority--about 80-85 percent--are students without 
intellectual impairments.
    <bullet> The trend lines show increased participation and 
performance on State assessments--students with disabilities are 
mastering content that, before standards-based reform, was never taught 
to them.
    <bullet> Clear, well-defined content standards are the foundation 
for improved outcomes for all students and make it possible to provide 
appropriate accommodations for students with disabilities, both for 
instruction and assessments.
    <bullet> We have made tremendous strides in accessible assessments 
for students with disabilities during the past decade, focusing on the 
need to think of all students from the beginning of design, clearly 
define what each assessment is intended to measure, and how that 
content can be measured for all students.
    <bullet> Retrofitting is not effective assessment design; practices 
like out-of-level testing are not effective to improve achievement.
    <bullet> Our greatest challenges in improving achievement for 
students with disabilities are NOT in the area of assessments--the 
greatest challenges are in delivering high quality instruction in the 
standards-based curriculum to every student with a disability.
    <bullet> Although there are some ways in which assessments can be 
improved, unless we provide students with disabilities greater access 
to the curriculum, making sure that they have individualized, 
specialized instructions, appropriate accommodations, and other 
supports they need to succeed, their achievement will remain low.
    <bullet> With clear and specific, teachable and learnable, 
measureable, coherent standards, teacher capacity to adjust teaching 
for individual needs can occur without losing the content or 
performance expectations.
    <bullet> These practices will also ensure that other students who 
are as low-performing as students with disabilities--predominantly 
students who are poor and of minority status but without identified 
disabilities--also can achieve at higher levels.
    <bullet> The discussion should not be about whether students with 
disabilities--or other low-performing students--can learn proficiency 
as defined for all students--it must be about whether we have the will 
and commitment to make it happen, building on research that shows it is 
possible.
    <bullet> The characterization of students with disabilities as 
children to be pitied, who should not be held to the same standards as 
others because of their disabilities, is inconsistent with what we know 
about students with disabilities--and flies in the face of the purpose 
of special education.
    <bullet> We should expect to see a value-added benefit from the 
Federal commitment to supplementing State and local funding for special 
education services.
                                 ______
                                 
    Chairman Harkin, Senator Enzi, and other members of the committee, 
thank you for inviting me to speak today. I am the Director of the 
National Center on Educational Outcomes (NCEO), a research and 
technical assistance organization with funding from the Office of 
Special Education Programs and the Institute of Education Sciences. 
NCEO provides assistance to States and districts on the inclusion of 
students with disabilities in State and district assessments, and on 
important related topics such as standards-based reform, 
accommodations, alternate assessments, graduation requirements, 
universally designed assessments and accessible testing. Because of our 
focused organizational mission, we work closely with States as they 
implement standards and assessments for all of their students. We know 
of the challenges that States and districts face as they work to 
implement the goals of standards-based reforms. NCEO supports its 
technical assistance with policy research on current policies and 
practices in these and other areas. NCEO also conducts other research 
to move the field forward in its thinking in areas such as how to 
develop universally-designed assessments that are accessible for 
students with disabilities without changing the content or level of 
challenge of the test, and how to most appropriately assess students 
with disabilities who are also English language learners. We work with 
other organizations on the critical issues of access to the general 
curriculum, instruction, and other factors that must be addressed for 
assessments to show the improved learning that students with 
disabilities are capable of demonstrating.
    I have been a member of the special education professional 
community since the early 1970s, and have personally viewed the 
tremendous changes in our country's approach to educating students with 
disabilities. I have also viewed the stumbles we have made along the 
way as we determine how to ensure that students with disabilities 
progress through school and emerge ready for college or a career.
    I have been asked to comment on how standards and assessments can 
be improved to raise outcomes for students with disabilities. I have 
also been asked to share my thoughts about the special challenges that 
we face in developing assessments that provide meaningful information 
about all students. As I address these topics, I want to also make two 
important points that are critical to understanding the challenges and 
the promise of standards and assessments for students with 
disabilities.
                  improving standards and assessments
    To address ways to improve standards and assessments so that they 
are best for all students, including students with disabilities, it is 
important to clarify first who students with disabilities are, and also 
to realize that: (1) students with disabilities have benefited 
tremendously from our country's focus on standards and assessments, and 
(2) standards and assessments, by themselves, do not guarantee that 
student performance will increase, or even that access to the general 
curriculum and instruction will occur.
    Who students with disabilities are. Students with disabilities are 
not to be pitied or protected from the same high expectations we have 
for other students. They should not be excluded from the assessments 
that tell us how we are doing in making sure that they meet those 
expectations.
    Students with disabilities who receive special education as 
required by the Individuals with Disabilities Education Act currently 
make up 13 percent of public school enrollment, with percentages in 
States varying from 10 percent to 19 percent of the State public school 
enrollment (see Table 1). They are disproportionately poor, minority, 
and English Language Learners.

 Table 1. Number and Percentage of IDEA Part B Children in Highest  and
                        Lowest Percentage States
------------------------------------------------------------------------
                                                   No. of
                                                  Children    Percentage
                                                   Served     of Public
                                                Under IDEA,     School
                                                   Part B     Enrollment
------------------------------------------------------------------------

Highest Percentage States:
  Rhode Island................................       20,646         19.7
  New Jersey..................................      178,870         18.1
  Maine.......................................       27,987         17.5
  Massachusetts...............................      149,743         17.3
  Indiana.....................................      112,949         17.1
Lowest Percentage States:
  Utah........................................       46,606         10.9
  California..................................      468,420         10.6
  Colorado....................................       56,336         10.4
  Idaho.......................................       21,703         10.3
  Texas.......................................      344,529         10.1
                                               -------------------------
    United States Total.......................    6,605,695         13.4
------------------------------------------------------------------------
Source: Table 52 of 2009 Digest of Ed Statistics.

    The vast majority--about 80-85 percent based on the latest 
distribution of disability categories--are students without 
intellectual impairments (see Figure 1). Rather, they are students who 
with specially designed instruction, appropriate access, supports, and 
accommodations, as required by IDEA, can meet the same achievement 
standards as other students. We must ensure that these students 
progress through school successfully to be ready for college or career. 
In addition, we have learned that even students with intellectual 
impairments can do more than we previously believed possible.
      Figure 1. Distribution of Disability Categories in 2008-2009

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In many cases, students have surprised their teachers and parents--
and themselves--by mastering content that, before standards-based 
reform, was never taught to them.
    Benefits of standards and assessments for students with 
disabilities. There is no question that students with disabilities have 
benefited in many ways from our country's focus on standards and 
assessments. After decades of being excluded from State and district 
assessment systems, their participation in State assessments has 
increased from 10 percent or fewer of most States' students with 
disabilities participating in the early 1990s, to an average of 99 
percent at the elementary level, 98 percent at the middle school level, 
and 95 percent at the high school level in 2007-2008 (Altman, Thurlow, 
& Vang, 2010). These increases are due in large part to participation 
requirements in ESEA and IDEA.
    We also are seeing evidence of improvements in the academic 
performance of students with disabilities. Some of this evidence comes 
from trends in the performance of students with disabilities on the 
National Assessment of Educational Progress (see Figure 2 for 2009 
grade 8 reading results).
     Figure 2. NAEP Grade 8 Average Scale Scores of Students with 
                              Disabilities

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Although there are large gaps in performance between students with 
disabilities and their peers without disabilities, we have built better 
understanding about students with disabilities, their opportunities to 
learn, and what can be expected of them. We have also learned much 
about what needs to change in their instruction, access to the 
curriculum, and in assessments in order to first see their achievement 
increase dramatically, and then to capture that achievement on 
sensitive assessments.
    Standards and assessments do not guarantee improved results or 
increased access and instruction. Standards and assessment are part of 
a theory of action that has been driving educational reform in the 
United States for the past decade or more. It assumes that assessments 
and accountability promote interventions and improvements in the 
quality of instruction, which in turn will produce higher performance, 
which is then rewarded through the accountability system.
    This theory of action has been slow to work for several reasons. 
First and most basic is that current instructional practices, 
especially for students with disabilities, are not uniformly effective 
in ensuring success for the students most in need. That is especially 
true for students with disabilities. Standards and assessments can be 
improved, but that is no guarantee that the outcomes of students with 
disabilities will be improved. To raise the outcomes of students with 
disabilities, we as a nation will need to step up for real change. We 
must hold our public schools accountable for the learning of students 
with disabilities, and expect that they commit to practices that we 
know work. And, given the substantial investment the Federal Government 
makes annually in support of special education, there need to be better 
results. We know it is possible because we are seeing success for all 
students in places with a strong commitment to the learning of all 
children--all including all students with disabilities. Studies of some 
of these places have identified what it takes to realize this success:

    <bullet> In 2004, the Donahue Institute identified 11 practices 
that existed in such schools, including such factors as: (a) a 
pervasive emphasis on curriculum alignment with the State standards, 
(b) effective systems to support curriculum alignment, (c) emphasis on 
inclusion and access to the curriculum, (d) culture and practices that 
support high standards and student achievement, (e) well-disciplined 
academic and social environment, (f) use of assessment data to inform 
decisionmaking, (g) unified practice supported by targeted professional 
development, (h) access to resources to support key initiatives, (i) 
effective staff recruitment, retention, and deployment, (j) flexible 
leaders and staff that work effectively in a dynamic environment, and 
(k) effective leadership that is essential to success.
    <bullet> The National Center for Learning Disabilities (2008) 
examined successful schools and districts across the Nation, 
identifying two schools and three school districts where the success of 
students with disabilities was improved. Though different in location 
and student demographics, these schools and districts all (a) included 
students with disabilities in general education classrooms, (b) used 
data to adjust instruction to each student's needs, (c) changed the 
ways that general education and special education teachers work 
together, and (d) restructured administrative organizations and 
procedures.
    <bullet> In a recent study of several Ohio school districts where 
assessment scores showed strong increases over 4 years, Silverman, 
Hazelwood, and Cronin (2009) found that successful districts shared 
seven key characteristics: (a) focus on teaching and learning as driver 
of all decisions, (b) intentional culture shift away from a separate 
special education model to shared responsibility for all students, 
eliminating a culture of isolation, (c) collaboration through 
structures and processes to talk about data and inform instruction, (d) 
leadership that starts at the district level and uses data to address 
issues, with monitoring of instructional practice, but shared 
leadership with principals, building staff, and teacher leaders, (e) 
instructional practice that ensures access to general curriculum/grade-
level content using research-based practices, (f) assessment that 
includes use of common formative assessments, and (g) curriculum that 
is aligned, with use of power standards, pacing guides, curriculum 
calendars, and a relationship to formative assessment.

    These three studies, which have looked specifically at what works 
for students with disabilities, all recognize the importance of 
standards and assessments. But, they are also about so much more--about 
the student's access to the curriculum, about a systemwide commitment 
to all students, and about leadership, collaboration, and shared 
beliefs among the educators who work with all students, including 
students with disabilities. Although we can improve standards and 
assessments, doing so is not a guarantee of raised outcomes for 
students with disabilities.
    Ways to continue to improve standards and assessments. Content 
standards are the foundation for improved outcomes for all students, 
including students with disabilities. These standards should identify 
what students should know and be able to do. Assessments are the means 
to determine where students are in their knowledge and skills in 
relation to the standards. A focus on improving standards and 
assessments should begin by addressing accessibility and universal 
design. By accessibility, I mean being easy to approach or enter, 
regardless of barriers that a student might have. Thus, accessible 
standards are ones that do not have inherent barriers to their 
attainment, such as a standard that requires a student who is deaf to 
listen. When I use the term universal design, I refer to a set of 
principles and procedures that ensure that assessments are appropriate 
for the widest range of students; universal design techniques can be 
applied from the beginning of test development to the point when 
students engage in assessments. The goal of universally designed 
assessments is to provide more valid inferences about the achievement 
levels of all students, including students with disabilities.
    Improving Standards. Our Nation has recognized the challenges of 
each State having its own content and achievement standards for 
students. Those challenges apply to students with disabilities just as 
they do to students without disabilities. The potential benefits of 
common core standards for students with disabilities are great. With 
clear, well-defined content standards, it is possible to better 
identify appropriate accommodations for students with disabilities, 
both for instruction and for assessments. And, if we think about all 
students from the beginning of the development of the common core 
standards, we can ensure that we do not inadvertently state our 
standards in a way that makes it impossible to accurately measure their 
knowledge and skills without instead reflecting their disability. By 
attending to these concerns from the beginning, we can ensure that 
rigorous content standards and performance expectations apply to all 
students, including those with disabilities.
    Research evidence on teacher use of accommodations, and 
accommodations decisionmaking by IEP teams, shows that teachers often 
have foundational misunderstandings of what the content and achievement 
standards mean. As a result, strategies to adjust instruction through 
accommodations often mean that students are denied access to the 
content; they are either over-accommodated or receive different content 
than intended by the standards. With clear and specific, teachable and 
learnable, measureable, coherent standards, teacher capacity to adjust 
teaching for individual needs can occur without losing the content or 
performance expectations. Common core standards that are clearer, 
fewer, and more rigorous should result in increased clarity for all, 
assuming that high quality professional development, training, and 
support continue for all teachers with all students as the standards 
are implemented.
    Reading, writing, speaking, and listening standards--given the 
nature of the standards themselves--often require accommodations for 
students with disabilities. For example, in the case of students who 
are deaf, a standard that calls for ``listening'' should be interpreted 
to include reading sign language. In a similar vein, ``speaking'' for 
some students with speech impairments, for example, should include 
``communication'' or ``self-expression.'' Students who are blind or 
have low vision should be able to read via braille, screen reader 
technology, or other assistive technology to demonstrate their 
comprehension skills. ``Writing'' should not preclude the use of a 
scribe, computer, or speech-to-text technology for students with 
disabilities that interfere with putting pen to paper, for example.
    Assessments. We have made tremendous strides in making assessments 
more accessible for students with disabilities during the past decade. 
States and test developers have, in general, started the development of 
their assessments with the recognition that students with disabilities 
are general education students first. The implication of this is that 
assessments are better designed from the beginning with all students in 
mind, and should not preclude the participation of most students with 
disabilities. It is critical that during the development process we 
think of all students, clearly define what each assessment is intended 
to measure, and how that content can be measured for all students. 
Retrofitting assessments with accommodations and developing a series of 
alternate assessments because the general assessments do not work for 
all students is expensive for schools and stigmatizing for students.
    The research base for developing accountability assessments that 
are more appropriate for all students has dramatically increased in the 
past several years. Based on this research, NCEO developed five 
principles for assessments used for accountability (Thurlow ET al., 
2008):

    <bullet> All students are included in assessments in ways that hold 
schools accountable for their learning.
    <bullet> Assessments allow all students to show their knowledge and 
skills on the same challenging content.
    <bullet> High quality decisionmaking determines how students 
participate.
    <bullet> Public reporting includes the assessment results of all 
students.
    <bullet> Accountability determinations are affected in the same way 
by all students.
    <bullet> Continuous improvement, monitoring, and training ensure 
the quality of the overall system.

    Each of these is supported by specific characteristics of 
assessment systems that are appropriate for all students, including 
students with disabilities. All together, they provide an important 
framework for any future assessment system.
    These principles reinforce what we have learned--first, thinking 
about students when assessments are first designed, developed, and 
implemented; second, defining allowable accommodations as part of the 
development process; and third, ensuring that the assessment system 
include all students, without exception. This way, developers have 
focused on ensuring that tests really measure what they are intended to 
measure--not extraneous factors, such as whether the students can 
figure out what the test developer means by a question or whether a 
picture has important clues about the answer to a question (Dolan ET 
al., 2009; Thurlow ET al., 2008; Thurlow ET al., 2009). Identifying 
ways to improve assessments for students with disabilities has, in 
fact, resulted in improving assessments for all students.
    What these principles do not do is indicate the specific nature of 
the assessment. Whatever the assessment approach--computer-based 
assessments, through course assessments, or paper and pencil end of 
course assessments--the critical point is to think about the whole 
population of students, including students with disabilities. Taking 
computer-based assessments as an example--these assessments show 
promise for increasing the accessibility of assessments. They also make 
it easier to fall back into some pitfalls that have been demonstrated 
to create problems for the assessment of students with disabilities. On 
the positive side, computer-based assessments can be developed in a way 
that embeds what are called ``accommodations'' when the test is paper-
based, such as the following described by Russell (2008):

    <bullet> Users navigate and interact with the functional elements 
of the test delivery system using a standard mouse, keyboard, touch 
screen, intellikeys, switch mechanism, sip-and-puff device, eagle-eyes, 
and other assistive communication devices.
    <bullet> Text can be read aloud using a human voice or a 
synthesized voice, or can be signed.
    <bullet> All graphics, drawings, tables, functions, formulas, and 
other non-text-based elements of an item can be provided through spoken 
descriptions.

    An auditory calming tool can be provided that allows all students 
to select from among a list of pre-approved sound files, and play 
softly in the background as the user works on the test. A computer-
based system could record each use of an incorporated feature or 
accommodation to document use for individual items as well as overall. 
There are tremendous possibilities for dramatically increasing the 
accessibility of assessments in a computer-based assessment system 
based on grade-level content standards. These assessments also have the 
potential to aid teachers as they determine how to move students to 
grade-level achievement.
    Computer-based systems also make it easier to fall back into some 
pitfalls that have been demonstrated to create problems for the 
assessment of students with disabilities. We must avoid pitfalls of the 
past in designing computer-based systems. They should be developed to 
be as transparent as possible about the content on which students are 
assessed and the ways in which the content is assessed. They should not 
revert to normative assessments, which compare students only to each 
other rather than to content standards, even in the name of being able 
to measure growth. Title I evaluation systems prior to 1994 were based 
on these types of approaches, and demonstrated dramatically that 
schools can show that students make ``progress,'' but the progress is 
meaningless if it is not tied to the intended content and achievement 
targets. These practices resulted in the failure of the system in 
identifying where schools were succeeding and where they were not. 
Students remained far behind their peers--and even increased the 
achievement gaps--in schools deemed successful based on flawed testing 
assumptions. Computer-based systems should not revert to an out-of-
level testing approach. To avoid the mistakes of the past, any adaptive 
computer-based assessments must be on grade-level. Even when 
constrained to grade-level, adaptive testing practices must be 
transparent enough to detect when a student is inaccurately measured 
because of splinter skills common for some students with disabilities, 
for example, with poor basic skills in areas like computation and 
decoding, but with good higher level skills, such as problem solving, 
built with appropriate accommodations to address the barriers of poor 
basic skills.
    The research base has dramatically increased for new forms of 
assessments, like alternate assessment based on alternate achievement 
standards (AA-AAS), developed to measure the academic achievement of a 
very small number of students who have the most significant cognitive 
disabilities. NCEO, in collaboration with the National Alternate 
Assessment Center (NAAC) has conducted an extensive literature review 
and has identified 10 common misperceptions about AA-AAS, as well as 
research-based recommendations to ensure common understanding and high 
quality assessments (Quenemoen, Kearns, Quenemoen, Flowers, & Kleinert, 
2010). A summary of the research-based recommendations is included in 
Appendix A.
       challenges in promoting improved achievement for students 
                           with disabilities
    Our greatest challenges in improving achievement for students with 
disabilities are NOT in the area of assessments. Including all students 
in assessment and accountability systems as well as requiring reporting 
of assessment results broken out by student groups that historically 
underperform has been critical in helping us understand our great 
challenges. These greatest challenges are in delivering high quality 
instruction in the standards-based curriculum to every student with a 
disability. Although there are some ways in which assessments can be 
improved, the real work that needs to be done is in providing students 
with disabilities greater access to the curriculum, making sure that 
they have the individualized instruction required by IDEA as well as 
appropriate accommodations and other supports they need to succeed. 
States that have done this have seen the improved results.
    We know how to educate all children, including those with 
disabilities, if we have the will to do so. The discussion should not 
be about whether students with disabilities can learn to proficiency--
and thus, it should not be about whether they should be included in the 
assessment and accountability measures we have for all students--it 
must be about whether we have the will and commitment to make it 
happen. We must build on the research that has shown that where there 
is shared responsibility and collaboration among staff, and where 
students are held to high expectations and are provided specialized 
instruction, supports and accommodations so that they can meet those 
high expectations, students score higher on assessments.
    Still, there are some risks as we move forward to develop 
assessments based on common core standards. It is too easy to explain 
away the gaps in achievement for students with disabilities by 
characterizing these students as poor little children who should not be 
held to the same standards as others because of their disabling 
condition. This characterization is inconsistent with what we know 
about students with disabilities--and flies in the face of the purpose 
of special education. We should expect to see a value-added benefit 
from the Federal commitment to supplementing State and local funding 
for special education services. This benefit will be realized through 
the unwavering expectation that all students with disabilities receive 
high quality and specialized instruction, have universal access to the 
challenging grade-level curriculum that is the right of all students, 
and participate in rigorous and inclusive assessments of their 
learning.
    Thank you.
                               References
    Altman, J., Thurlow, M., & Vang, M. (2010). Annual performance 
report: 2007-2008 State assessment data. Minneapolis, MN: University of 
Minnesota, National Center on Educational Outcomes.
    Dolan, R.P., Burling, K.S., Harms, M., Beck, R., Hanna, E., Jude, 
J., Murray, E.A., Rose, D.H., & Way, W. (2009). Universal design for 
computer-based testing guidelines. Iowa City, IA: Pearson.
    Donahue Institute (2004), A study of MCAS achievement and promising 
practices in urban special education. Hadley, MA: University of 
Massachusetts Donahue Institute.
    National Center for Learning Disabilities. (2008). Challenging 
change: How schools and districts are improving the performance of 
special education students. New York: Author.
    Quenemoen, R., Kearns, J., Quenemoen, M., Flowers, C., & Kleinert, 
H. (2010). Common misperceptions and research-based recommendations for 
alternate assessment based on alternate achievement standards 
(Synthesis Report 73). Minneapolis, MN: University of Minnesota, 
National Center on Educational Outcomes.
    Russell, M. (2008). Universal design of computer-based tests: RFP 
language. Unpublished document, Boston College.
    Silverman, S.K., Hazelwood, C., & Cronin, P. (2009). Universal 
education: Principles and practices for advancing achievement of 
students with disabilities. Columbus, OH: Ohio Department of Education.
    Thurlow, M.L., Quenemoen, R.F., Lazarus, S.S., Moen, R.E., 
Johnstone, C.J., Liu, K.K., Christensen, L.L., Albus, D.A., & Altman, 
J. (2008). A principled approach to accountability assessments for 
students with disabilities (Synthesis Report 70). Minneapolis, MN: 
University of Minnesota, National Center on Educational Outcomes.
    Thurlow, M.L., Laitusis, C.C., Dillon, D.R., Cook, L.L., Moen, 
R.E., Abedi, J., & O'Brien, D.G. (2009). Accessibility principles for 
reading assessments. Minneapolis, MN: National Accessible Reading 
Assessment Projects.
                                 ______
                                 
     Appendix A: Rethinking Assumptions about Alternate Assessment 
                Based on Alternate Achievement Standards
    To facilitate the process of rethinking assumptions about alternate 
assessments based on alternate achievement standards (AA-AAS), common 
misperceptions are identified first, followed by the assumptions 
underlying them and a research response to those assumptions. A 
comprehensive summary of the literature underlying the research 
responses is provided in Common Misperceptions and Research-based 
Recommendations for Alternate Assessment based on Alternate Achievement 
Standards (NCEO Synthesis Report 73 by Quenemoen, Kearns, Quenemoen, 
Flowers, & Kleinert).

    Common misperception No. 1.--Many students who take the AA-AAS 
function more like infants or toddlers than their actual age, so it 
makes no sense for schools to be held accountable for their academic 
performance.

    <bullet> Assumptions Underlying Misperception: Some people assume 
that students who take the AA-AAS have such severe disabilities that 
they are unable to learn academic content. Sometimes, this 
misperception is rooted in the assumption that all students must 
progress through typical infant and preschool skill development before 
any other academic instruction can occur.
    <bullet> Research Response: First, learner characteristics data 
from many States show us that MOST students who participate in AA-AAS 
have basic literacy and numeracy skills. Second, we have understood for 
many decades that waiting until these students are ``ready'' by 
mastering all earlier skills means they ``never'' will be given access 
to the skills and knowledge we now know they can learn. In the 1980s, 
educators realized that students with significant disabilities could 
learn functional skills to prepare for independent adult life, even 
before mastering all lower skills. In recent years, research suggests 
that these students can often also learn age-appropriate academic 
skills and knowledge even when they have not mastered all earlier 
academic content.

    Research-based Recommendation: Build accountability systems to 
ensure that all students who are eligible for the AA-AAS have access to 
and learn academic content expected for their same-age typical peers, 
to an appropriate but challenging alternate achievement standard.

    Common Misperception No. 2.--Many students who participate in AA-
AAS have life-threatening medical conditions or are not able to 
communicate.

    <bullet> Assumptions Underlying Misperception: People sometimes 
assume that AA-AAS students are a small homogeneous group of students 
with multiple problems that go well beyond what schools can actually 
handle; these students cannot speak, hear, or communicate in any way.
    <bullet> Research Response: Students who participate in AA-AAS are 
generally less than 1 percent of the total student population or about 
9 percent of all students with disabilities. Most of the students who 
take the AA-AAS (90 percent) have consistent communication skills. Only 
about 10 percent of AA-AAS students communicate on a pre-symbolic level 
(without intentional use of language, pictures, objects, or signs). 
These students can communicate, but need to be given opportunities to 
learn effective strategies, including the use of assistive devices.

    Research-based Recommendation: For the small group of students who 
initially demonstrate a lack of symbolic communication (about 10 
percent of students who take the AA-AAS), educators should persistently 
and systematically seek multiple and varied communication strategies 
including assistive technology to permit these students to learn and 
then to show what they know on an AA-AAS.

    Common Misperception No. 3: Students in the AA-AAS can learn only 
rote academic skills, so AA-AAS should reflect only these skills.

    <bullet> Assumptions Underlying Misperception: People sometimes 
assume that the curriculum for students with severe disabilities often 
has been based on math skills of time and money and reading skills 
limited to sight words because that is all these students can learn.
    <bullet> Research Response: It is true that research through the 
1990s reflects a very narrow curriculum. Researchers now are finding 
strong evidence of academic skills and knowledge development among 
these students, including abstract concepts and transfer of learning, 
for students who participate in AA-AAS. We are only beginning to learn 
what these students are capable of, once given the opportunity to learn 
and access to appropriate accommodations such as assistive technology. 
In our work with States, we have encountered many teachers who have 
been ``surprised and amazed'' at what their students are able to learn 
when given the chance.

    Research-based Recommendation: Build AA-AAS approaches based on a 
model of academic content development that allows these students to 
demonstrate a range of grade-level content that their peers are also 
learning and demonstrating.

    Common Misperception No. 4--The AA-AAS has eliminated the teaching 
of important functional skills.

    <bullet> Assumptions Underlying Misperception: People sometimes 
assume that the addition of academics to the curriculum for students 
with severe disabilities means that there is limited time for teaching 
functional skills like self-care, community participation, and safety. 
There is not enough time in the day to do both.
    <bullet> Research Response: AA-AAS are designed to ensure students 
with significant cognitive disabilities are taught academic content 
like their peers, but a student's IEP will often still include 
important functional skill goals. Many teachers have found that blended 
instruction in academic and functional skills yields better results for 
both. The ``line'' between academics and functional instruction begins 
to blur as teachers and parents discover how truly useful and 
satisfying increased literacy and numeracy skills are for these 
students, for quality of life and enjoyment, for integration into the 
community, school, or adult life, and for future employment.

    Research-based Recommendation: Provide training and support to 
teachers so that they can effectively merge academic and functional 
instructions where appropriate and so that they understand the vital 
importance of academic skills and knowledge to full participation in 
family, school, and community life.

    Common Misperception No. 5--AA-AAS must cover all of the same 
content that is on the general assessment for typical peers.

    <bullet> Assumptions Underlying Misperception: People sometimes 
assume that the grade-level curriculum is very challenging and has far 
too much information for these students to cover in a year, let alone 
learn at all, but Federal law requires the same content on all tests.
    <bullet> Research Response: Federal regulations permit States to 
define the appropriate depth, breadth, and complexity of content 
coverage for the AA-AAS. Researchers are working on ways that students 
can access grade-level content at various ``entry points.'' States must 
show that these content priorities truly ``raise the bar'' of 
historically low expectations, and are clearly linked to the content 
that typical students in the same grade should know and be able to do. 
Since this is a shift for teachers who do not have experience with this 
content, training and support to teachers is an essential component of 
high quality alternate assessments.

    Research-based Recommendation: Provide training to teachers, and to 
other key assessment system stakeholders and advisors, on what research 
suggests these students are able to know and do when given the 
opportunity.

    Common Misperception No. 6--Most AA-AAS are entirely individualized 
and differ for each student.

    <bullet> Assumptions Underlying Misperception: People sometimes 
assume that teachers make so much adaptation and adjustment to the 
assessment for each student that there is no way you can compare 
results from one school to another.
    <bullet> Research Response: A good AA-AAS allows a defined amount 
of flexibility in administration of the items and tasks because 
students with the most significant cognitive disabilities vary in how 
they take in and respond to information and requests. Even so, AA-AAS 
must also adhere to basic standards of technical quality so that the 
scores can be compared for accountability purposes. An AA-AAS should 
incorporate training, oversight, and structures to balance flexibility 
with standardization of procedures and ongoing monitoring to ensure the 
assessments are administered, scored, and reported as intended.

    Research-based Recommendation: All AA-AAS scores should indicate 
whether the student is proficient in an academic domain through 
procedures that allow flexibility but control for possible sources of 
error.

    Common Misperception No. 7--An AA-AAS measures teacher performance 
in compiling attractive portfolios or examples rather than measuring 
student academic performance.

    <bullet> Assumptions Underlying Misperception: People sometimes 
assume that teachers who are able to put together pretty portfolios or 
examples, or who can choose student examples that make them look good, 
will score higher than teachers who may teach well but who do not spend 
time creating pretty portfolios or examples of what their students do.
    <bullet> Research Response: Given what we understand about student 
characteristics, most AA-AAS formats require test administrators 
familiar to the student. That means that in most cases, teachers 
interact with the student to capture accurate evidence of what the 
student knows and can do. A good AA-AAS is designed to control for 
administrative responses that are decorative, and to focus on 
independent student performance. Research has shown that teachers who 
are well-trained in instruction and assessment administration often 
have students with higher AA-AAS scores, but spending a lot of time 
making the portfolio ``look good'' has little impact on scores.

    Research-based Recommendation: Train teachers on systematic data 
gathering procedures, provide oversight, coaching, and monitoring to 
ensure they implement the procedures as intended, and design scoring 
processes to exclude evidence that reflects teacher behaviors instead 
of independent student performance.

    Common Misperception No. 8--It would make more sense if teachers 
simply reported on their students' progress meeting IEP goals rather 
than requiring an AA-AAS.

    <bullet> Assumptions Underlying Misperception: People sometimes 
assume that students with the most significant cognitive disabilities 
have IEPs that define what they should be learning. Gathering data that 
already are used for the IEP is the best measure of the students' 
achievement.
    <bullet> Research Response: A good IEP will identify the services, 
supports, and specialized instruction needed so that the student can 
learn both academic and functional skills and knowledge. Data gathered 
on the specific goals and objectives in the IEP are important for 
individual accountability among IEP team members for these short- and 
long-term goals and objectives, in all areas where the student has 
them. Some of these goals and objectives will specify the services and 
supports the student needs to access the general curriculum, but 
student progress based on the IEP does not provide accountability for 
student achievement of proficiency in the general curriculum. In 
contrast, AA-AAS are designed to provide data for system accountability 
to ensure that all students are provided access to and are achieving to 
proficiency in the general curriculum.

    Research-based Recommendation: Design AA-AAS so that there are 
comparable data on the effectiveness of schools in providing access to 
the general curriculum to students with the most significant cognitive 
disabilities.

    Common Misperception No. 9--Some AA-AAS formats (i.e., portfolio, 
checklist, performance assessment) are better than others.

    <bullet> Assumptions Underlying Misperception: People sometimes 
assume that one method is better than another, with ``better'' meaning 
more technically adequate; the specific method that is considered 
better or worse often is based on good or bad experiences in the past.
    <bullet> Research Response: Research on the technical quality of 
AA-AAS has shown that the format of the test is a poor predictor of 
technical quality. What a ``portfolio'' or ``checklist'' or 
``performance assessment'' or what any other type of format name is can 
vary enormously, and a number of States now use hybrid models that 
combine elements of these approaches. Any of these types of formats can 
be of poor or high quality. A good AA-AAS should sensitively and 
accurately measure what students know and can do once they have been 
given appropriate access to interesting, age-appropriate academic 
content.

    Research-based Recommendation: Select the format of the AA-AAS 
based on beliefs about academic teaching and learning for AA-AAS 
students.

    Common Misperception No. 10--No AA-AAS can be a technically 
adequate measure of student achievement for accountability purposes.

    <bullet> Assumptions Underlying Misperception: People sometimes 
assume that the AA-AAS breaks all the rules of good design of large-
scale assessments as judged by high quality psychometric evidence that 
have been used by measurement experts for a century.
    <bullet> Research Response: The challenges of designing AA-AAS are 
very new; prior to the 1990s, no large-scale assessment program 
included students with significant cognitive disabilities, and very few 
measurement experts had experience designing assessment for these 
students. Fortunately, there has been a great deal of work done since 
the 1990s on issues that have emerged in developing psychometrically 
sound AA-AAS. AA-AAS can be designed to produce valid and reliable 
information about student outcomes.

    Research-based Recommendation: State assessment offices should 
address three components of the assessment design as they develop and 
implement the AA-AAS: (a) description of the student population and a 
theory of learning for these students, (b) structure of the 
observations from the assessment, and (c) interpretation of the 
results. The technical defense of an AA-AAS starts and ends with these 
three components.

    The Chairman. Thank you very much, Dr. Thurlow.
    Thank you all for your testimonies, and we will start a 
round of 5-minute questions here.
    Dr. Thurlow, you know probably of my involvement with the 
whole disability movement for many, many years. This is one 
area that I intend to focus on a lot in the reauthorization of 
ESEA. What steps can we take to ensure that the assessments we 
develop are appropriate for all students, including students 
with disabilities, and provide us with a valid and valuable 
information on their achievement and growth?
    What can we learn from I think it was what Dr. Phillips 
talked about? In other words, a technology-based, computer-
based system that gives perhaps a more rapid and more thorough 
information to teachers on how to assess their students, and 
especially students with disabilities.
    A subset of my question might be you are familiar with the 
1 percent, 2 percent problem? The exemptions for the 1 percent. 
Now they want to go to 2 percent. If you could address yourself 
to that briefly, I would appreciate that.
    Ms. Thurlow. All right. Let me start with steps to take, 
and I think we have been learning this across time as we have 
worked with State assessments, that we need to take that 
universal design approach, where we start from the very 
beginning, thinking about all students. That means when we are 
talking about our standards that we be clear about exactly what 
they mean so that we know what accommodations can be provided 
that won't get in the way of what we are trying to measure.
    We need to think about those accommodations carefully so 
that we are getting valid measures. We need to continue to work 
in relation to that on the decisionmaking process so that 
students are not over accommodated, for example, which in many 
cases ends up interfering with their performance.
    Well, let me jump to the notion of technology-based. In 
fact, I would broaden that to the variety of discussions we are 
having about innovative assessments. Most of them are going to 
be wonderful for children with disabilities. It is not the 
particular approach we take. It is how we ensure that we have 
thought about all students as we take a particular approach.
    Talking about technology-based assessments, I think it has 
tremendous potential in being able to incorporate what we now 
call accommodations. They don't have to be separate. It can be 
part of the assessment itself. That is a big advantage, and all 
the others, getting scores quickly, etc, are advantages.
    One caution I would have is that we need to remain on grade 
level. We need to continue the same expectations for students 
with disabilities as we have for other students. Dr. Phillips 
talked about every student getting the same content standards. 
We need to make sure that that happens for students with 
disabilities as well, that we don't somehow send them down a 
path where they don't get to all of the standards that 
everybody else gets to.
    The Chairman. One percent. We had the 1 percent exemption, 
and now people are pushing for 2 percent.
    Ms. Thurlow. OK, I would never call----
    The Chairman. Of course, we know that 1 percent translates 
into 10 percent.
    Ms. Thurlow. Ten percent of students with disabilities, 1 
percent of the total population. That is like a general 
estimate.
    The Chairman. That is right.
    Ms. Thurlow. The alternate assessment based on alternate 
achievement standards, which we typically refer to as the ``1 
percent assessment,'' or often refer to that, I think has been 
a tremendous benefit for the field. We have figured out who the 
students are, pretty much, who belong in that assessment, those 
students with significant cognitive disabilities, intellectual 
involvement. We have made tremendous strides in figuring out 
what the content standards are, how they apply to those 
students, and we are working and evolving in our knowledge of 
how best to assess those students.
    Remember, these students were never in assessments before. 
We have made tremendous improvement there. I believe the 1 
percent is pretty good, pretty accurate percentage for students 
to be involved in the alternate, based on the alternative 
achievement standards.
    The Chairman. What about 2 percent?
    Ms. Thurlow. I think 2 percent, this is the alternative 
assessment-based, a modified achievement standard, a relatively 
new assessment. We are really looking at who those kids are. 
There have been challenges in identifying what makes students 
with disabilities different from other low-performing students. 
So we see the same characteristics.
    They are generally poor students, low-performing----
    The Chairman. While I found that there was maybe some 
acceptance among the disability community for the 1 percent, I 
find almost no acceptance for the 2 percent. And it just goes 
too far.
    Ms. Thurlow. It has become controversial, holding different 
standards for another 2 percent.
    The Chairman. I think we have to look at that very 
carefully.
    Ms. Thurlow. Thank you.
    The Chairman. Well, my time has run out. I have other 
questions for Dr. Phillips, too, on assessments. But, I will do 
that in the next round.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    I appreciate the testimony of all these witnesses, and I 
have a lot of questions, too.
    I will begin with Dr. Paine. How can the Federal Government 
support the work of the States in the further development and 
adoption of the Common Core standards without nationalizing or 
federalizing the standards?
    Mr. Paine. Great question. I certainly appreciate the 
question.
    I think the revised ESEA should reward State leadership and 
innovation not just with funding for assessments, and 
professional development and other inputs, but also by perhaps 
codifying a new State-Federal partnership that does, in fact, 
promote innovation in alignment of practice to this set of 
Common Core standards. By that, I mean allowing States some 
degree of flexibility in establishing an accountability system 
that works for that particular State.
    I think also that as we look at the innovation money that 
is available right now, the $350 million Race to the Top 
innovation money that is available, there have been two 
assessment consortia, if you will, that CCSSO is going to work 
with. One is a fairly traditional-based summative assessment 
approach with some degree of balance, and the other really 
includes multiple measures of looking at how we assess student 
progress.
    And so, I think that a Federal role could be recognizing 
that if we really truly are interested in 21st century types of 
assessments that really will link kids to the workforce, to the 
private sector--our own John Chambers from Cisco hails from 
Charleston, WV. And so, as we engage in conversations with 
John, he clearly says that it is about kids knowing content at 
a high level and a proficient level, but it is also about kids 
understanding how to apply that content.
    You simply don't measure that kind of performance result 
necessarily with a summative standardized type of test. Looking 
at adaptive tests and innovative tests, at ways to assess 
student progress in many innovative, different ways so that you 
are measuring the full scope of these rich, robust common State 
standards.
    That is certainly a role that the Federal Government could 
play and Congress could play in the reauthorization in 
encouraging those kinds of innovative assessment systems with 
strong accountability measures.
    Senator Enzi. Thank you.
    Dr. Schmeiser, given the work that ACT has done with 
WorkKeys, could you explain how that would relate to the issue 
of career-ready standards? How would that be assessed?
    Ms. Schmeiser. Yes, Senator.
    Matter of fact, the WorkKeys program, which is a workforce 
development program offered by ACT, has been predicated on a 
database of over 17,000 jobs in the United States that have 
been profiled. That data fed right into the Common Core 
development process. As I mentioned, that was very much an 
evidentiary, research-based process.
    We used information about what is needed for high school 
graduates. What do they need to know and be able to do when 
they leave high school in order to be able to go into workforce 
training programs and be ready to learn job-specific skills?
    That information and data on those foundational skills fed 
into that evidentiary base in being able to define the Common 
Core. When we talk about college and career ready, the career-
ready evidence from WorkKeys was used as part of that process. 
It has been front and center in the evidence that was used to 
identify the Common Core, and WorkKeys will, in fact, be 
aligned with the Common Core as well.
    Senator Enzi. Thank you.
    Dr. Phillips, it is clear that States need to update their 
State-wide assessments to align with these new State-developed 
standards. Will State-wide summative assessments provide 
accurate assessment of the student knowledge of these 
standards, or will additional assessments be needed?
    Mr. Phillips. Well, I think the plan with the consortia of 
States and the common standards, assuming that those are 
adopted, that would go a long way toward solving the problem--
instead of going in 50 different directions, they might go in 
2.
    Assuming that they also are able to set high 
internationally benchmarked performance standards on, let us 
say, both consortia or however many there might be, then that 
should go a long way toward solving the problem that I 
discussed.
    Senator Enzi. Thank you.
    I can see that my time is about up. So I will save some for 
the next round.
    The Chairman. Thank you, Senator Enzi.
    As Senators know, we sent around to your offices that, with 
the concurrence of Senator Enzi, we have adopted a new 
procedure here in this committee that the Chair will recognize 
Senators in the order of their appearance at the committee 
dais. I think that is just a more fair and just way of doing 
things.
    The order I have would be Senator Murray, Senator 
Alexander, Senator Franken, Senator Isakson, and then Senator 
Bennet, Senator Hagan, Senator Merkley, and Senator Casey thus 
far.
    With that, I would then now recognize Senator Murray.

                             Senator Murray

    Senator Murray. Thank you very much, Mr. Chairman.
    Thank you to you and Senator Enzi for holding this really 
important hearing in this series, and I really appreciate all 
of the witnesses today.
    I am very interested in making sure all of our students 
succeed. I think we all are. Dr. Schmeiser, you talked a little 
bit about making sure that a student is prepared for a college 
or a career. And I am interested, as we see the dropout rate so 
high today and a lot of our students not succeeding, if you can 
talk a little bit--any of you--about how we can prepare 
students for both post-secondary education and a career.
    What are differences, if there are any, in the skills that 
a student needs to be successful in a post-secondary education 
program or in a workplace, and what is it like, and how do we 
write an assessment that makes sure that all kids fall into a 
category of success no matter where they intend to go? I will 
open it up to anybody who would like to respond.
    Ms. Schmeiser. Thank you, Senator Murray.
    I would like to say that when the Common Core State 
Standards Initiative got underway, the definition that they 
arrived at for college and career readiness assumed that 
students, all students could be educated to a common standard, 
so that when they leave high school, they are ready to go into 
some form of post-secondary, whether it is 2-year, 4-year, 
trade, technical school, or go into workforce training programs 
for the kinds of jobs that I described in my testimony.
    The purpose of the standards is to set a common expectation 
for all students when they leave high school so they are ready 
to go ahead and go into post-secondary without needing 
remediation or go on to workforce training programs and learn 
the job-specific skills that they will need in their career, as 
well as some of the nonacademic behavior, the good job 
behaviors that go along with that.
    Senator Murray. I hear what you are saying is that we can 
do it, but I am asking you what is that? What is it that we are 
doing that says that we have an assessment that reaches both?
    Ms. Schmeiser. That the assessment reaches both?
    Senator Murray. What do we need to do in our high schools 
different today than we have been doing that makes sure our 
students reach both of those potentials?
    Ms. Schmeiser. I think what we need to do, it goes back to 
needing an aligned system that not only talks about Common Core 
standards, but also has aligned professional development for 
teachers so they understand what the standards are and what 
they mean. They can teach those standards in many different 
ways.
    The idea is not that one-size-fits-all in the instructional 
process, but those standards can be contextualized in career 
formats. They can be also introduced in more academic formats. 
The point is, the system has to be aligned both in terms of 
outcome, instruction, assessment, and the data systems coming 
back so they can identify when students are falling behind, 
whether it is in a career contextualized course or an academic 
course.
    Bottom line, all kids are educated to the same standards.
    Senator Murray. Anybody else want to comment on that?
    Dr. Rivera.
    Ms. Rivera. I would just like to say that if we are 
considering the role or what should happen for English language 
learners and other students, different populations, it is very 
important that teachers know how to translate those standards 
and that they are able to address the individual differences of 
those subgroups of students.
    For English language learners, I really believe, and I 
believe for other students as well, not just English language 
learners, that this whole idea of academic language is 
critical. And that teachers need to understand what--to dissect 
the standards and actually understand the language of the 
content and be able to teach it explicitly to the students, and 
this will work for English language learners. It will work for 
many different subgroups of students.
    In other words, that language includes--and I know it may 
sound like we have--it is the English language. But, yes, we 
have to teach students how to understand the phrases, the 
language of academics, the language of the classroom, as well 
as the specific language of the content. In biology or 
wherever.
    I will just give you an example. We have been working with 
California and with New York. In New York, we are using the 
biology, we are working with them to help identify the language 
of biology and then to teach teachers how to explicitly teach 
that language so that those students can then be successful in 
that content area. This is the kind of work that needs to be 
done for all students really.
    Senator Murray. OK. Thank you.
    Thank you, Mr. Chairman. My time is up, but I do want to be 
able to submit questions. I assume we can do that for the 
record.
    The Chairman. We will leave the record open for questions. 
No doubt about that.
    Senator Alexander.

                     Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman. And thanks for an 
excellent hearing and excellent witnesses.
    If you will permit me a little historical context? I went 
back and found an article from 1991, entitled ``What We Were 
Doing When We Were Interrupted.'' The ``we'' was we in the 
George Bush I Education Department. ``Interrupted'' meant the 
election in 1992. What it reminded me was that of the national 
goals that Senator Harkin mentioned that in 1987, the Governor 
and the President setting national goals, and then President 
Bush's America 2000 strategy to mobilize the country to meet 
those goals.
    These initiatives included, No. 1, a new set of national 
standards in core curriculum subjects, including science, 
history, English, geography, art, civics, and foreign 
languages. Math was already done. No. 2, a voluntary national 
examination system geared to those new standards.
    Then when we left, there were, according to this, seven 
task forces created to develop new national academic standards 
are funded and scheduled to complete their work by 1994, 1995. 
Some of us were discussing earlier there was a Goals 2000 panel 
that was going to push that forward.
    Now, I compliment the work that the States have done so 
far, and I am watching it cautiously. English and math are the 
easy parts of a very hard thing to do. I remember the history 
standards in the 1990s. They completely blew up, and I want to 
see how you do this with U.S. history when the time comes.
    I guess my first question, and I will ask you, Dr. 
Schmeiser, just give, if you can, a fairly short answer. 
College and career ready, do you mean college or career ready? 
Do you mean to say every student should go to college?
    Ms. Schmeiser. No. I think the point was whether a student 
goes on to college after high school or into a workforce 
training program, they will be educated to the same standards, 
not different standards.
    Senator Alexander. Well, I mean, how realistic is--how many 
today go to college of our high school graduates? What percent 
do--half, 60 percent, 40 percent?
    Ms. Schmeiser. Well, I think there are estimates that up to 
three-quarters of our Nation's high school graduates go into 
some form of post-secondary education within 2 years of leaving 
high school.
    Senator Alexander. Yes, and many aren't prepared.
    Ms. Schmeiser. Too many are not prepared. Yes, sir.
    Senator Alexander. I am interested in what you have found. 
Dr. Phillips, you mentioned going in 2 directions instead of 
50. In conversations I have had with Secretary Duncan, I 
worried a little bit about--you know, I have been interested to 
see how the common standards worked.
    The tension that happened in the 1990s, as I remember it, 
was--and going back to Senator Enzi's point, I think there is a 
difference between national and Federal. National to me means 
States getting together, doing things. That is national in our 
very diverse constitutional system, which is very different 
than Taiwan and Singapore--small, people very much the same. 
Federal means Washington meddling in that.
    I had wondered whether it might not be even a good idea if, 
as things went along, we might have two or three common, maybe 
a Massachusetts-led coalition of States, maybe an Iowa-led 
coalition of States. I believe you were talking about maybe one 
type of assessment and another type of assessment.
    In other words, to build into this effort to raise 
standards enough diversity to provide a safety valve, which is 
a safety valve against mediocrity, for one thing, to make sure 
that national doesn't mean average. To avoid political 
correctness or the feeling of one part of the country having a 
view imposed on it that it doesn't agree with, say, as history 
standards or other standards come up.
    What has been the thinking on this as you all have worked 
through this?
    Mr. Phillips. Well, I think that is right. I don't know how 
many consortia of States will be funded, but that is about the 
right number. And what is important is this is a substantial 
improvement over what we have today, where each State is going 
in a different direction.
    Senator Alexander. Right.
    Mr. Phillips. One thing I would like to say is that these 
are grassroots efforts, and Federal funding of these efforts 
doesn't make it Federal. I believe these efforts ultimately 
will need Federal funding. There are many examples where the 
Federal Government has provided funds without being in charge 
or in control.
    Senator Alexander. I can agree with that, although one has 
to be careful, as we move on. Mr. Chairman, on his point about 
Tennessee standards, you are exactly right. They were low. I 
always thought the cure for that, though, was just to establish 
a rating system and say, like you do in football, there is 
Division 1, 2, and 3, and just tell the people of Tennessee, 
they are playing in Division 3, and they would very quickly be 
embarrassed into Division 1.
    They have actually changed under the Governor's leadership 
and partly just because of the embarrassment of what you just 
described.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    Senator Franken.

                            Senator Franken

    Senator Franken. Thank you, Mr. Chairman.
    Senator Alexander, I think, was talking in regards to some 
of the questions I have, which is sort of how to set national 
standards and make sure they are national. I understand the 
importance of State flexibility and local flexibility beyond 
State flexibility in implementing these standards, but Dr. 
Phillips, I was kind of concerned. I mean, you did give the 
examples of the loophole in NCLB, which is to set these very 
low standards in some States.
    I am wondering how we are able to have Common Core 
standards, but are States, how do we guard against States still 
using that loophole?
    Mr. Phillips. Well, one thing would be to be aware of this 
when ESEA is reauthorized. Therefore, it is on your radar.
    Senator Franken. That is what we are doing.
    Mr. Phillips. Right. Exactly.
    Senator Franken. Right. Right.
    [Laughter.]
    Mr. Phillips. One way you could do this is if you adopt 
common standards, you have closed part of the loophole. What 
you have done there is you now have a reasonably common set of 
skills that you want students to learn. What you then need to 
do is take the second step and rein in these discrepancies in 
the performance standards. It is the cut scores on the tests.
    Many States that have low-performance standards have 
challenging content standards. In other words, they tell the 
press we are expecting all this of our students, but then they 
lower their cut score so that all the students pass. One way 
around that is through international benchmarking, where I am 
assuming if you have three or four consortia, when they set 
that cut score on the test, whatever the test is, they need to 
make sure that it is benchmarked against the best in the world.
    So that you are then flying with radar. You know how high 
that standard should be. If all the consortia do that, and if 
they are benchmarked against the best in the world, then they 
will be reasonably consistent and reasonably high, and that 
would close that loophole.
    Senator Franken. How do we guard against--how do we make 
them do that?
    Mr. Phillips. Well, first of all, I am assuming that when 
these standards are set, a lot of people are going to be 
watching. If the standards are set low, people like myself are 
going to write a lot of articles about it. Another thing you 
could do, you could build into the ESEA an evaluation of these 
activities, something like the National Academy of Sciences, 
where there could be an evaluation component where they would 
look at these things.
    Senator Franken. OK. I wanted to get to another thing, 
which is, I am very familiar with computer-adaptive tests, 
which I think are great, and they allow you to take them three 
times a year and study growth and actually use them as 
diagnostic tools so you can actually teach because of the 
results of tests. I have had principals refer to the No Child 
Left Behind tests that are taken in April, and you get the 
results back in June as ``autopsies.'' So I understand the 
importance of those.
    At the same time, Dr. Schmeiser talked about multiple 
assessments, and I am wondering how what you are talking 
about--the kind of tests you are talking about seem to be very 
objective, extremely objective, and can you do the other kind 
of multiple assessments with those, with the computer-adaptable 
tests, or does it mean that you have to take other tests, too? 
How do you reconcile these kind of two models, either of you?
    Mr. Phillips. I will start. I don't see that there is a 
problem because I can't imagine, except for some rare 
instances, tasks that could not be administered by computer. 
Some of them may not be scored by computer, but they could be 
administered by a computer, which cuts down on the cost and can 
also be adaptive.
    I think there is a lot of flexibility and a lot of capacity 
and scalability with computer-adaptive testing that will make 
this consortia of States--a computer doesn't care whether you 
are testing a million students or 300 million students. It is 
scalable, and it makes this whole thing feasible. I don't see 
it as being incompatible with wanting to have multiple 
measures.
    Senator Franken. OK. Thank you.
    I hope we do get another round, but if not, I will submit 
my other questions in writing. Thank you.
    And thank you, Mr. Chairman.
    The Chairman. Senator Isakson.

                            Senator Isakson

    Senator Isakson. Thank you, Mr. Chairman.
    Dr. Thurlow, what is your opinion of the current ESEA 
requirement on making AYP No. 1 and establishing a school or a 
system as ``needs improvement?''
    Ms. Thurlow. I can speak to that in terms of the tremendous 
benefits that we have seen for students with disabilities with 
a system that has set standards, held all students to those 
standards, and required that there be accountability for 
students. Perhaps one of the greatest advantages has been the 
requirement that we be able to see how subgroups are performing 
so that we can actually see how students with disabilities are 
doing.
    I think that has been an advantage. That doesn't speak 
necessarily to opinions about AYP, etc. But the impetus behind 
that has been good.
    Senator Isakson. Well, I know on page 6 of your testimony, 
the last sentence in the next to the last paragraph says, 
``Retrofitting assessments and accommodations and developing a 
series of alternative assessments because the general 
assessments do not work for all students is expensive for 
schools and stigmatizing for students.''
    I understand what that statement means. I am married to a 
special ed teacher. I have grown up--for 42 years. When you 
started your career, I was already married to a special ed 
teacher. I also know that there have been a lot kids, the 1 
percent cognitive disability, which the chairman mentioned, I 
agree with your response about expanding that.
    However, there are many different disabilities, and I have 
been advocating for a couple of years, really, when we get to 
this reauthorization, considering that the assessment of a 
special needs student be determined by the IEP that the parent 
and the special ed teachers develop, rather than being a 
singular assessment. What would you think about that?
    Ms. Thurlow. Well, I would have concerns about that. The 
IEP has some very specific purposes related to laying out the 
goals for the student to get through individualized 
instructions. Those goals can be in many areas--behavioral 
supports, etc.
    The IEP really is not a mechanism for accountability. It 
wasn't designed to do that. We would have different things all 
over the place, not just in different States, but in different 
districts and in different schools and in different classrooms 
based on IEP team members' understandings. I think it has been 
a tremendous advantage to have same standards for all students, 
and we would lose that.
    Senator Isakson. Well, I am not talking about the--of 
course, I get that sometimes words mean different things to 
different people. I am not talking about the standards of the 
curriculum, but I am talking about the method of assessment of 
the achievement of the standards of the curriculum.
    Ms. Thurlow. The IEP doesn't provide us with a method.
    Senator Isakson. Is it not--wasn't it developed so the 
parent and the teacher got together to determine what was in 
the best interest of the child and their instruction for the 
coming year?
    Ms. Thurlow. It is a legal document that helps parents work 
with educators to determine the specialized instruction that is 
needed, what are the certain areas that we need to focus on, 
hopefully, to make sure that the student has access to the 
curriculum.
    Senator Isakson. My reason for bringing this up is because 
in the last sentence in this paragraph that I read that you 
wrote, you could apply the same paragraph to ``needs 
improvement'' assessments on systems. Sometimes because of one 
disaggregated group, a system can become a ``needs 
improvement'' system or a school can become a ``needs 
improvement'' school. And I am a growth model guy. I think you 
ought to give schools a chance to work out of the stigma.
    A lot of times special needs get the blame for that when, 
in fact, they are somewhat in gridlock because of the lack of 
any flexibility in what the assessment model will be. That is 
what I am getting at.
    Ms. Thurlow. From my perspective, it is easy to blame a 
group when we don't know exactly how to make sure that they 
reach those standards, when we haven't figured out all of the 
ways to make sure that their achievement is improving.
    Senator Isakson. Well, I would love to work with you on 
this subject because it is the single biggest thing that is 
going to affect IDEA and special needs as we come together, and 
I don't think this should become stigmatized, first of all. I 
don't think systems or schools should become stigmatized 
because we don't have the flexibility to assess the same 
standards for those kids so they get the same break, 
understanding the accommodation some of them are going to need.
    Ms. Thurlow. Right. Just one last thing. We know that there 
are places where it is working, where students with 
disabilities are achieving, and the achievement gap is 
disappearing for students with disabilities. We have to look to 
those where they talk about shared understandings, 
collaboration, making sure they expect the same thing of all 
students, etc.
    Thank you.
    Senator Isakson. Thank you, Doctor.
    Thank you, Mr. Chairman.
    The Chairman. Senator Isakson, I look forward to working 
with you on this, too, because it is something that I know you 
care deeply about, and it is something that we have to focus on 
in the reauthorization of ESEA. I look forward to working with 
you on that.
    Senator Isakson. Thank you.
    The Chairman. Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman. Thank you for this 
hearing.
    Thank everybody for your testimony.
    One of the, I think, unintended consequences of No Child 
Left Behind is that there is a horrible springtime ritual in 
this country, in our school districts, where we spend 2 or 
sometimes even 3 weeks administering what are largely 
standardized tests, having led up to that period of time with 
weeks and weeks and weeks, in some cases months of test 
preparation. Then that ritual ends, and throughout the rest of 
our 181-day school year, whatever it is, we do all the things 
we wanted to do during the school year. Like my two daughters 
are practicing Shakespeare right now in their elementary school 
in Denver.
    I think one of the causes--there are many causes of that. 
One of the causes of that is that we have had far too many 
standards at every grade level that have exhausted our kids and 
exhausted our teachers and not given us the information that we 
need, either for accountability purposes or for teaching and 
learning purposes.
    I remember when I was superintendent in Denver, somebody 
came one day--I wish I could remember who it was, but I don't--
and he had two books in his hand, and he was standing with our 
principal. He said, ``This is your ninth grade math textbook. 
It is in English, and it costs $115. This is the ninth grade 
math textbook they use in Singapore, which parenthetically is 
in English and costs $15.''
    ''The good news,'' he said, ``is that this math textbook 
exists somewhere inside this math textbook, if you can only 
find it.'' Of course, what he was saying was we have to drill 
down in a much more rigorous way on fewer standards, fewer, 
clearer, higher, which is the purpose of your work, Dr. Paine, 
and the work of the other States.
    I have two questions for anybody who wants to answer them. 
One, will we have accomplished finding this math textbook in 
these standards? Do we feel comfortable that we really are not 
covering the waterfront anymore, but we are going to do what is 
important, benchmark to an international norm? What can we do 
to help make sure that is true?
    And second, what are the implications for technology or for 
test-making generally that may get us out of this springtime 
ritual that is so counterproductive for our kids?
    Dr. Paine, maybe we will start with you?
    Mr. Paine. You sound like a school guy.
    [Laughter.]
    Very insightful. I went on a trip with some of our 
colleagues with CCSSO to Singapore, and the mantra is teach 
less, learn more. I think that the fewer, clearer, higher 
mantra in the----
    Senator Bennet. Oh, I should say, Dr. Paine--sorry--that 
the point of that is that our bell regularly gets rung by the 
ninth grade kids in Singapore in terms of math results. So, 
sorry.
    Mr. Paine. Exactly. I think that reflective in the Common 
Core standards is the concept that, and I can speak from 
personal experience in West Virginia, that we have narrowed our 
State standards significantly, particularly in grades 
kindergarten through third grade, where we have reduced the 
numbers of standards, made them much more concise. We had the 
rigor, but we didn't have the simplicity, if you will, of 
concept so that we can really hone in on a few concepts well 
and lay that foundation for later grades.
    That is one very practical thing that I think you will see 
in the Common Core set of standards. I do also agree with you 
with regard to this ritual that occurs every spring.
    I have to tell you just a little story. I have just 
finished touring our State for about 3 weeks, conducting focus 
groups with the kids, teachers, parents, school 
superintendents, and local board presidents. Interviewed each 
of our State board members, business community, PTA, and 
numerous, numerous people.
    I got to the kids, and I talked to them about the State 
assessments and how much emphasis we place on the present model 
of using State assessments to assess our standards. I bring 
this up for a purpose so that I hope in the reauthorization we 
can find a way to fix this.
    I was talking with the kids about this notion of linking 
teacher evaluation to student performance results and 
specifically the practice that seems to be emphasized right now 
is a summative test, which I really have to question, I have to 
be honest with you. I am all about accountability, but I think 
you have to be very careful about making those kinds of 
singular decisions on one particular assessment.
    The kids said, ``Well, that means on the State test, which 
we really don't take that seriously, we can take out Mr. 
Green.'' And I thought, ``Oh, no.'' Then I said, ``So you don't 
value that State test?'' I said, ``Do you value the NAEP?'' I 
serve on the NAGBE board--governing board for the NAEP.
    They said, ``Well, sometimes we don't take that test as 
seriously.'' I won't tell you what they really said. So I said, 
``What test do you really value that will motivate you to learn 
all that you are taught daily?'' And with respect to my 
colleague that sits to my left, they said, ``The ACT.'' If we 
were an SAT State, they probably would have said that, too.
    I think we have to figure out a way to merge purposes with 
a simpler testing strategy, if you will, in that springtime 
ritual that could be spread throughout the year and more 
frequent intervals as we look at assessing the Common Core so 
that we can make these assessments very important to our 
students. That is the point I wanted to bring out.
    Mr. Phillips. Well, let me address the technology question. 
The whole idea of technology is to make testing less burdensome 
and to get out of the way of instruction so you can have more 
instruction. I mean, just an obvious example of that, if you 
give a test that takes 2 months to get back to the students, 
you have made a lot of progress if you can get that result back 
in 15 seconds so the teacher can actually do something with it.
    Technology is an important ingredient in this as we move to 
a new set of what I hope are State comparable assessments in 
order to make it feasible, in order to cut the costs down, and 
actually get better measurement because these type of tests--
one of the reasons, for example, why there is a need--why there 
has been discussion for a 2 percent assessment is that existing 
paper/pencil tests give terrible measurements for that bottom 
set of students. So, there is a need to have a new test.
    With a computer-adaptive test, it goes right down there and 
gets as good a measurement for them as it gets for everybody 
else. There is no need for a 2 percent assessment if you have a 
computer-adaptive assessment because it is doing as good a job 
for that bottom 2 percent as it is doing for the middle and for 
the top.
    It is leveraging the technology that makes this feasible 
and practical and cost-effective in the future.
    Senator Bennet. Thank you, Mr. Chairman.
    The Chairman. Great questions and answers, provoked me to 
think about some questions.
    Now let us see, Senator Hagan.

                             Senator Hagan

    Senator Hagan. Thank you, Mr. Chairman.
    I, too, want to thank you for having this hearing and 
certainly thank all of your witnesses for the time you spent 
preparing to come and sharing with us your thoughts and 
expertise.
    I want to follow up on Senator Bennet's question. It wasn't 
my first question, but since we are right here. Dr. Phillips, 
what you just said on the computer-adaptive testing, that what 
it does is, it helps I guess from the bottom 2 percent just as 
much as the top 2 percent. Can you elaborate on what you mean 
by that?
    Mr. Phillips. Yes. A typical paper/pencil test, let us say, 
has got 40 items. Everybody takes the same 40 items. If you are 
a low-achieving student, that test is too hard for you. It 
doesn't do a good job of saying what you know. If you are a 
high-achieving student, it is too easy for you. It doesn't 
really measure--it sets a ceiling. You can't go any further.
    What the computer-adaptive test does is it focuses on your 
level of ability, and it drills down and gets better and better 
and better measurements until it can't do any better. It 
therefore gives the same accuracy to a low-achieving student 
and to a high-achieving student.
    Particularly, if you are measuring growth, which is one of 
the initiatives in the future, which has been mentioned, one of 
the things you see right now with paper and pencil tests, 
anytime you have growth measures, you always see the same 
phenomenon. High-achieving students do worse over time. Low-
achieving students do better than you expect over time.
    The reason for that is the high-achieving students are at 
the ceiling and can't go anywhere. The low-achieving students 
capitalize on chance, and they will bump up just due to chance. 
You get a much more accurate measurement of growth if you have 
the same precision and accuracy for high-achieving students as 
you have for low-achieving students. That is particularly 
important if you are going to hold teachers accountable.
    If you are a teacher with a classroom of high-achieving 
students, it is going to be a disaster if you try to measure 
growth because they are likely to either not show any growth or 
show negative growth. Particularly when you get into the growth 
business, for low-achieving and high-achieving students, you 
need better measurement. That is what this would do.
    Senator Hagan. I think one of the things I have been 
concerned about is those high-achieving students, sometimes I 
don't think we expect as much out of them, that we have got to 
continue setting much, much higher expectations at the same 
time.
    From your computer-adaptive testing, how many States are 
doing that right now, and what do you see to encourage other 
States to actually get onboard?
    Mr. Phillips. Many States around the country have some 
portion of their testing being done by computer adaptive. I 
could be wrong, but the three States I mentioned I think are 
the only ones that are completely and totally computer 
adaptive. Oregon is the only State that has been actually 
approved through peer review and No Child Left Behind. The 
other two will go through that process shortly.
    What I describe, shows that all testing companies are 
involved in this. There is a lot of innovation, R&D going on. 
If there was a signal from the Federal Government through ESEA 
or through the $350 million that this is important, there would 
be a whole lot more innovation and R&D, and the computer-
adaptive tests in the future would be even better than they are 
today. Even today, they are practical and feasible and would 
give you what you need.
    Senator Hagan. One other comment that you said on that is 
that 15 minutes or whatever after the test is taken, then there 
could be some analysis in the States that use these.
    Do the teachers actually then go back and do the students 
see these tests, see what they have done right and wrong? 
Because so many times, I think these students take these tests. 
You never see the booklets again. You never understand what you 
did wrong in order to evaluate it from that student's 
perspective.
    Mr. Phillips. Yes. What you could do with these tests, just 
to give you an example, in a typical paper and pencil test, let 
us say it is eighth grade and you are measuring the Pythagorean 
theorem, which is a subset of mathematics. You may only have 
two items that cover that. So you can't get a lot of good 
information. The teacher can't get a lot of good information to 
help determine if their students are learning the Pythagorean 
theorem.
    With computer-adaptive testing, each student----
    Senator Hagan. I understand that, but do they actually go 
back and look at it?
    Mr. Phillips. Yes, they do.
    Senator Hagan. OK.
    Mr. Phillips. They get an immediate report, and you can 
see, ``Oh, my students need to learn the Pythagorean theorem.''
    Senator Hagan. I had one other question that I wanted to 
talk about just for a minute, and that is North Carolina is the 
first State in the Nation to create a Center for 21st Century 
Skills, with the goal of identifying those skills that will be 
most sought after in the workforce when--in the future with the 
idea to improve the States' education system to ensure that the 
students actually graduate with those skills.
    Dr. Paine, I know in West Virginia, that you are also a 
leader in this effort, that West Virginia is. And I was just 
wondering, can you share with me any of what the Federal 
Government might do to encourage more States to identify and 
promote 21st century skills, and how can we sustain our State's 
commitment to this as new assessments continue to be put 
forward?
    Mr. Paine. Thank you.
    Certainly, North Carolina was a leader, and we were the 
second State following North Carolina. I think that is a very 
insightful question. We tend to, if we are going to make 
decisions, we want to make sure we emphasize content, but embed 
higher-level skills--those ``21st century'' critical thinking, 
problem-solving, the IT skills, so forth--within the content.
    Once again, when you do that, and that is what North 
Carolina has done as well, and that is what the business sector 
really wants us to do in preparing a workforce. Whether it is a 
company with an international presence or whether it is a 
national company, a Fortune 500 company, or if it is a small 
business in West Virginia, I hear the same kinds of 
expectations. That calls for different teaching methodologies, 
which also calls for different assessment practices.
    And in response to your previous question, because they 
both dovetail, there is one of the consortia that has developed 
is committed to the adaptive testing process, along with other 
types of measures. It is called Smarter Balance, and there are 
some 30 States that have come together to be a part of this 
consortia. It is being led by Sue Gendron, who is the former 
commissioner for Maine, who has just recently stepped down to 
head up this consortium.
    Senator Hagan. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Merkley is gone.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Mr. Chairman, thank you and thanks for 
organizing this hearing and calling us together.
    We want to thank our witnesses for your testimony and your 
work and your scholarship.
    When I have traveled across Pennsylvania, as a State 
government-elected official and as a candidate and then in the 
time I have been in the Senate, whenever the topic of No Child 
Left Behind came up, it would usually be raised by others, and 
they would ask for a response. I found that people, whether 
they were mostly in the context of teachers and administrators, 
but others as well--I found that whenever the topic came up, 
people were even-tempered. They were always mad.
    [Laughter.]
    They had a real frustration, I think, with the gap between 
what was--what undergirded the original, the legislation itself 
and the expectations that flowed from that and then what the 
reality was when it was implemented. This is a broad kind of 
overview and too simplistic, but I will just frame it as simply 
as I can.
    There was a sense that one side of the debate was yelling 
for more investment. The legislation made promises. The other 
side was saying we needed more measuring and assessment, and so 
that was implemented, or standards as well. It seems like we 
failed on both. We failed on the investment, and we failed on 
how we implemented the standards and assessments.
    I know we don't have a lot of time, but I wanted to delve a 
little bit into the assessment question. Dr. Paine, I will 
start with you, and I invite others to comment as well. I found 
these two sentences among the many in your testimony on page 4 
under the Common Assessment Development section.
    You said, and I quote, in the first paragraph in that 
section, ``Aligned standards and assessments will allow States 
aligned teacher preparation and other supports designed to 
improve overall student achievement and close achievement 
gaps.'' And then the sentence after that, which I thought was 
even more pointed in terms of what we want to talk about. 
``Teachers from participating States will benefit from high-
quality instructional supports and materials that are aligned 
to the core standards.''
    I wanted to focus your attention just on what are and how 
would you define and give examples of ``high-quality 
instructional supports and materials?''
    Mr. Paine. I think you hit on perhaps the core of what 
could be the most important element, in my mind, of the 
reauthorization, and that is----
    Senator Casey. We didn't choreograph this either.
    Mr. Paine. No, sir. I have been very even-tempered about 
that, but----
    [Laughter.]
    I really think you hit on the issue, and that is developing 
the quality of teaching in our State, in our country is 
critical to the success of the education. We already know from 
research that that is probably the No. 1 variable that affects 
student achievement outside of what goes on outside of the 
home.
    I think that we need to very quickly capitalize on a set of 
common standards and an assessment strategy to measure the full 
scope of that, which includes a variety of different measures, 
and help our teachers to understand how to become what I would 
call ``assessment literate.'' Teach them how to read these 
standards and how to teach these standards and how to assess 
student achievement within those standards, and then to hold 
those accountable for their preparation.
    And I think as we have one set of standards and hopefully 
can arrive at perhaps one set of assessments, perhaps two in 
two consortia, that allows us to really focus our efforts on 
how we do prepare teachers, and what are the best strategies 
for doing so? Then, how do we build a performance-based 
accountability system that makes some sense? We can do that 
with the collective energies of all the States.
    Senator Casey. Do you have any particular examples of those 
two words I mentioned, the materials and supports? Can you just 
amplify on that a little?
    Mr. Paine. That also allows a real focused effort on 
developing high-quality resources and materials in support of 
that Common Core. Instead of necessarily differences in the way 
that States, other resource partners, vendors, and so forth 
focus their efforts, all will be focused on that Common Core 
set of standards, which I think will capture a real positive 
synergy as we develop real rich, robust resources to support 
the teaching of those standards.
    Senator Casey. I know I am just about out of time. Anybody 
else want to quickly add to that?
    [No response.]
    Well, thanks very much.
    Mr. Chairman, we will submit questions for the record as 
well. Thank you.
    The Chairman. Thank you very much, Senator Casey.
    Can I just return here to a couple of things? One 
specifically. Senator Bennet spoke about the annual spring 
exercise of testing and how much time it takes. Dr. Paine, if I 
am not mistaken, I made some notes here, you said we need a 
simpler testing strategy, one that goes on during the school 
year.
    One of the things that I have thought about for a long time 
is, how do teachers during the school year get an accurate 
assessment of each of their students that they are teaching on 
an ongoing basis so that you don't wait 2 or 3 or 4 months to 
find that something is happening here, and this student is not 
learning something?
    It could be a simple thing like, well, in math it could be 
students are doing all right, but this one student, for some 
reason, is not doing very well. They seem to do OK in adding 
and multiplication and stuff, but they have a problem with 
fractions. If a teacher can find that out, then they can deal 
with this student and deal with the specificity of what it is 
that that student can't quite grasp.
    I am familiar with a program that has been ongoing in Iowa 
that--at least I have heard from teachers who seem to love it--
it has been kind of an experimental type program. It is 
technology-based, computer-based, where--and I played with it 
once a couple of years ago when it was just started to look at 
how if I were a teacher, how I would get this information.
    It is a very rapid type of thing where literally on an 
almost daily basis or weekly basis, I should say, teachers get 
good information back about how their students are doing in 
each of these subjects. They also find out whether or not there 
is some part of that subject, maybe it is English, they are 
doing all right with punctuation. They seem to be doing all 
right with words and spelling, but they don't know where to 
place a verb. And they pick that up. The teacher gets that on 
an ongoing basis rather than just at a test at the end of the 
year that tests a more broad-based kind of achievement.
    Are you familiar with any other kinds of programs; I am 
sure that is not the only one. Are there other kinds of 
programs that are technology-based, computer-based where you 
get this kind of simpler testing strategy that goes on during 
the year and doesn't just rely upon one or two big tests?
    Mr. Paine. There are programs and strategies that do 
exactly as you say and certain products that are produced by 
vendors out there in support of the teaching of standards. One 
of the projects that the Council of Chief State School Officers 
is undertaking, a very exciting initiative, I might add, is 
looking at what is the next generation of learners, and how do 
we support those needs?
    Embedded within that concept, with the richness of 
technology that is now available to us, is to assess each 
student against each of these common standards and their 
progress in very real time so that teachers have access to that 
information via a very rich, robust data system on their 
desktop so that they can make those kinds of very frequent 
real-time decisions.
    If you think about the possibilities of how that network 
then could be expanded to the home or to other places or a data 
system like that, we really have the capability to make those 
kinds of decisions. That is the undergirding of that kind of 
assessment system that I know you are referring to, those 
classroom assessments developed by teachers that are done in 
alignment with a broader assessment strategy that includes also 
a summative test.
    The Chairman. Because one of the things that it seems to me 
that technology-based learning and the new technology, 
computer-based programs we have, kind of gets, to English 
language learners. Dr. Rivera, how has technology helped or 
hurt students who have to both be tested in English language 
learning, but also be tested in the core subjects that they 
have to learn also?
    This is where I lack any knowledge. I don't really know 
whether or not technology has helped this. Has it assisted it? 
Have they focused on it? What is happening with new 
technologies in terms of English language learners?
    Ms. Rivera. I am not aware of efforts currently to develop 
assessments specifically. The English language proficiency 
tests, I think they are all given as paper and pencil, although 
perhaps there are some efforts to start developing them as 
computer-based assessments.
    In terms of English language learners, what is going to be 
important in terms of the technology is to make sure that the 
schools that they are attending have access to the technology 
and instruction and that the instructional program integrates 
the technology and students are very capable of using the 
technology before we go off and try to test them using the 
technology.
    I know that I worked a little bit on the standards at ACT 
actually on the writing assessment for NAEP, and the endeavor 
was to put NAEP on a computer-based platform. The committee I 
was on was to look at accommodations for English language 
learners and for students with disabilities. One of the 
cautions was to make sure that the instructional program really 
includes that kind of teaching. If it doesn't, then it is going 
to be problematic.
    Also computers need to be available to students, and I know 
NAEP had a--perhaps it has been resolved. I know it was an 
issue in terms of the writing assessment that schools did not 
have the available computers to allow the testing to happen in 
an easy fashion.
    The Chairman. Dr. Phillips, you indicated you wanted to 
address this?
    Mr. Phillips. Just in your earlier question, in the three 
States I mentioned, each of them have three opportunities for 
the student to take a test. In between those opportunities, the 
teacher can develop formative assessments also on a computer 
and get results on the same scale as a summative assessment.
    So that if the student is having trouble with the 
Pythagorean theorem, she could say, ``Well, what is it about 
the Pythagorean theorem you don't know?'' and then develop an 
assessment based on that.
    The other thing is your second question. In Oregon, their 
entire test for English language learners is computer-adaptive. 
It covers listening and speaking, and it is working just fine. 
There haven't been any issues.
    Also, in terms of languages, there are no limit to the 
number of languages you can test in. The fact that we are doing 
it in English, that is just a random choice. You can do it in 
Spanish or any--for example, in Hawaii, we are doing it in 
Hawaiian.
    The Chairman. Is it written, or is it spoken? Is it 
something that is an audible-type test?
    Mr. Phillips. In Oregon, it is both written and spoken.
    The Chairman. Both.
    Mr. Phillips. Right. So you are assessing listening and 
speaking.
    The Chairman. Interesting. Interesting.
    Ms. Rivera. It is an English language proficiency test that 
they have, right? Right. It is not a content assessment, which 
is different.
    The Chairman. Right. Just for English language.
    Ms. Rivera. Right.
    The Chairman. Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    I will start with Dr. Rivera. For English language 
learners, are there accommodations that could be used for all 
types and forms of assessments that would maintain the validity 
of the scores for those students?
    Ms. Rivera. Well, that is an area we have been working with 
quite extensively, which is to identify what States are doing 
and what kinds of accommodations are available to States. There 
are accommodations, and we really have organized accommodations 
around the--for English language learners, the main thing that 
they need is access to the language of the test. They need to 
have linguistic access to the test. We call these linguistic 
accommodations.
    States have many different kinds of accommodations, and 
they have policies that list accommodations. Often what they 
do, does not distinguish the accommodations for English 
language learners from students with disabilities. Making the 
decision as to which accommodation is appropriate for these 
students, I mean, Braille is not going to help an English 
language learner. Or moving things around, whatever. There are 
different kinds of accommodations.
    It is very important that folks really have an 
understanding of what the needs are of the English language 
learner and that the appropriate accommodations are available 
to them, and those would be linguistic accommodations or 
accommodations that address the language, allow them access to 
the content of the test.
    Senator Enzi. Thank you.
    When Dr. Paine was speaking earlier, he reminded me of some 
student meetings that I have had. One of the things that really 
disturbed me is there is this general impression out there that 
there is no value in taking these tests. It doesn't matter how 
I do on it or what I do on it or even if I do it.
    How do we overcome that? Did you come up with any great 
ideas based on your student/teacher work? And anybody else, 
too. If they take it seriously, it makes a difference in the 
scores, I suspect.
    Mr. Paine. Those students that are preparing to go to 
college certainly value college entrance tests. I think one of 
the secrets might be that we merge purposes of an assessment of 
the Common Core with a purpose, the same purpose or a shared 
purpose, excuse me, of college-going rates.
    One other is that in our technical adult education classes, 
we are moving toward a 50 percent performance-based component, 
not just a paper/pencil test, as to whether you can be a good 
electrician. Now you will be juried by practitioners that will 
come in and actually assess your progress on a real, 
contextual, life-learning situation. Can you actually wire the 
house, so to speak?
    If we can get at more performance-based types of 
assessments like that, those tend to engage kids, as you know. 
And move away from those traditional types of tests that kids 
are, quite frankly, tired of, that don't necessarily yield the 
kind of learning information that we need to know about kids in 
this 21st century. I think that is where this whole computer-
adaptive and other strategies of assessment really provide 
tremendous hope as we assess the Common Core.
    Senator Enzi. Thank you.
    Anyone else?
    Ms. Rivera. I think that one of the very important pieces 
in all of this is the knowledge that the teachers have to be 
able to use the information that they gain from assessments. 
Also for them to be able to feel that they can develop 
classroom-based assessments and understand what skills their 
students need. That is really at the base, and it is very 
important.
    It is not--teachers really don't feel comfortable often 
with assessment. Even if there is a rich body of data, they 
don't always feel comfortable being able to look at it and 
figure out what it is that it is really telling them about 
their students. We need to spend some time and some effort in 
helping teachers to understand how to use the information, how 
to use assessments appropriately.
    I think in the new Race to the Top and the way these 
assessments are being developed, there is supposed to be an 
integrated system where there is summative assessment as well 
as perhaps benchmark assessments and classroom assessments. 
That whole system needs to be linked and connected, and 
teachers need to be able to have access to the data.
    Senator Enzi. I have to tell you, all of that really 
bothers me. I thought that teachers were taught to assess and 
that that was their job in the classroom on a daily basis, and 
in that regard, they ought to be assessment literate. Why do we 
keep saying that the teachers don't know how to use the 
assessments?
    The assessment may be bad. That still really bothers me. I 
will have some more questions that will deal with that.
    Dr. Thurlow, quickly because my time has expired. Have 
students with disabilities been included in the development 
growth models, and if not, why not?
    Ms. Thurlow. Growth models are complex, and I believe that 
students with disabilities have been included, if they 
participate in the regular assessment with accommodations that 
don't invalidate the results. So, yes, they have been included 
in that way. We have had students who are in the alternate 
assessment based on alternate achievement standards, and we 
haven't figured out how to include them very well. I think it 
is something that we are still working on.
    Likewise, any other alternate assessment, unless it is 
based on the grade-level achievement standards, we haven't 
figured out very well how to include that in the growth model. 
Those are probably some of the students who most need to be 
included in a growth model.
    Senator Enzi. Thank you.
    The Chairman. Can I just add to that, those would be that 
10 percent, or the 1 percent?
    Ms. Thurlow. Yes. Yes.
    The Chairman. Well, 1 percent, but it is 10 percent of 
students with disabilities.
    Ms. Thurlow. Right.
    The Chairman. Like a different slice, they would fit into 
what Senator Enzi was talking about?
    Ms. Thurlow. Yes. Yes.
    The Chairman. Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman.
    I just had two last questions. The first is that I think 
the State tests and NCLB has done a lousy job basically on 
accountability and a lousy job on teaching and learning 
because, among other things, we sort of push those two things 
together in the summative assessment that we are talking about, 
and I think it is really important for us to pull those apart.
    Accountability is one piece of this puzzle, and it is 
different at this level of Government than it is at the State 
level and than it is at the district level. We are talking 
about measures of teacher effectiveness. Some of us are 
interested in differentiating pay. There are all kinds of 
things that fall into this category, and this category is 
teaching and learning and the ability of a teacher to assess 
her kids and then differentiate her instruction based on what 
she has seen to be able to meet the individual needs of the 
kids in her classroom.
    Those are not the same thing, it seems to me. I wonder, as 
we are thinking about both the summative assessment at the end 
and the interim assessments or the benchmarks, the formative 
assessments, whatever it is we are talking about, whether we 
are giving thought to those distinctions? Are they important? 
Is this something we should be paying attention to from the 
schoolhouse level?
    Does anybody have a reaction to that at all?
    Mr. Paine. I would, very quickly. You brought up an issue 
that I think is very, very important for us to address as we 
think about Common Core and how do we assess the Common Core? 
How do we support assessment literate teachers, and how do we 
then look at their performance relative to accountability 
measures?
    I haven't met a teacher in our State that is not interested 
in making more money. It is how do I make more money? If you 
are going to link my performance to one single assessment, that 
could be problematic. We need to look at models that support a 
variety of student learning outcomes.
    One of the issues that I would have with a typical--here we 
are calling them typical growth models now that assess annual 
progress, why don't growth models measure progress over more 
short, frequent intervals such as every 2 months where we drop 
several types of ways to assess progress at shorter, frequent 
intervals so we can inform kids, their parents, and teachers 
about their progress and incorporate all of that into some kind 
of a growth model of accountability?
    Senator Bennet. Is there anybody else?
    Ms. Schmeiser. I would add a quick comment that I agree 
totally with the last comment. I would also say that the Common 
Core standards allow us an opportunity to align our systems in 
this country like we have never been able to do before, grade 
by grade, in an aligned, coherent way, looking at student 
growth longitudinally over time.
    Inside of that can be multiple measures that can be 
embedded in instruction. They can be benchmark examinations. 
They can be summative. When you have a common goal and when it 
is clear what kids need to know and be able to do at the end of 
the third grade, fourth grade, fifth grade, you open doors for 
being able to have an aligned system both every day in the 
classroom to improve instruction all the way through the 
system.
    I would say, Senator Bennet, I think it is very important 
to begin to think about the roles that assessment can play in 
the classroom, as well as for different purposes at different 
times, and make sure from the very beginning they are well-
planned and well-aligned as we look at longitudinal student 
progress.
    Senator Bennet. Well, what is interesting about that is 
that the more aligned, if you imagine a system that is 
perfectly aligned--I don't think there is one. I have never 
seen it in the United States. It ought to be a system, sort of 
ironically, as a consequence of that alignment that allows the 
system to differentiate to the maximum degree. That is really 
what we are talking about.
    Ms. Schmeiser. Yes, that is right.
    Senator Bennet. The last question I had was for Dr. 
Phillips because I am least familiar with the things that you 
have talked about today, and I appreciate learning about it.
    Has anybody done an analysis of the capacity of the school 
districts in this country from a technological point of view to 
administer what you are talking about? Because I suspect there 
is huge variability in the United States of how many computers 
are available, the wiring, and all of that. I was just curious 
whether there is something that I could look at and read about 
that?
    Mr. Phillips. There are surveys. And what was found in the 
three States I mentioned is that that is not really an issue 
because since the testing window is the whole year, you don't 
have to have a computer for every student at the same time. And 
in the rare cases where a district or a school doesn't have a 
computer, this is obvious leverage to get them one. It is a 
kind of a win-win situation.
    Even in Hawaii, where even the most remote islands, I think 
we only found maybe one case where they needed a computer and 
didn't have one. In the old days when you thought about 
computer-adaptive testing, this was an issue, but it is really 
not an issue when the testing window is all year long.
    Ms. Thurlow. I would refer you also to a study that NAEP 
did. I think in 2008, they collected information about 
technology, and it was quite positive. I can't remember all the 
facts, but I could certainly get the reference to you.
    Senator Bennet. Thank you, Mr. Chairman.
    And thank you to the witnesses.
    The Chairman. Thank you, Senator Bennet.
    Senator Enzi. I have questions, but I will submit them.
    The Chairman. Well, I think this has been a very 
informative panel. I join with Senator Bennet and Senator Enzi 
and all the rest of the Senators in thanking you for your 
excellent testimony, both written and verbal.
    We will leave the record open for 10 days for other 
questions that we might want to submit to you in writing, 
appreciate if you would answer those.
    I also ask that you continue to keep us informed as we move 
along in ESEA reauthorization, your suggestions, your advice. I 
am sure that through your different networks, you will know 
what we are doing here. I hope that you will continue to inform 
and advise us as we move along.
    And I hope that we, in turn, our staffs can continue to be 
in touch with you as we develop this.
    So thank you very much. Great hearing. Appreciate it.
    The committee will stand adjourned.

[Editor's Note: The following report was requested to be 
included in the hearing record: Policy Analysis--Behind the 
Curtain: Assessing the Case for National Curriculum Standards 
by Neal McCluskey. This report may be found at http://
www.cato.org/pub_display.php?pub_id=11217.
    Due to the high cost of printing, materials that have been 
previously published are not reprinted in the hearing record.]

    [Whereupon, at 4:02 p.m., the hearing was adjourned.]

                                   

      

</pre></body></html>
